<html>
<title> - EPA MISMANAGEMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                           EPA MISMANAGEMENT

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2015

                               __________

                           Serial No. 114-26

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                                ____________
                                
                                
                       U.S. GOVERNMENT PUBLISHING OFFICE
95-251 PDF                 WASHINGTON : 2015                       
              
              
________________________________________________________________________________________   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2146514e614254525549444d510f424e4c0f">[email&#160;protected]</a>  

              
              
              
              
              
              
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
       William McGrath, Staff Director for Interior Subcommittee
               Ryan Hambleton, Professional Staff Member
                        Melissa Beaumont, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 30, 2015...................................     1

                               WITNESSES

Mr. Arthur Elkins, Inspector General, Office of the Inspector 
  General, U.S. Environmental Protection Agency
    Oral Statement...............................................     6
    Written Statement............................................     9
Mr. Patrick Sullivan, Assistant Inspector General for 
  Investigations, Office of Inspector General, U.S. Environmental 
  Protection Agency
    Oral Statement...............................................    13
    Written Statement............................................    15
Mr. Stanley Meiburg, Acting Deputy Administrator, U.S. 
  Environmental Protection Agency Accompanied by: Mr. John 
  Reeder, Deputy Chief of Staff, U.S. Environmental Protection 
  Agency
    Oral Statement...............................................    23
    Written Statement............................................    24

                                APPENDIX

U.S. Merit Systems Protection Board Statement, submitted by Mr. 
  Cummings.......................................................    66
Letter from Susan Grundman, U.S. Merit Systems Protection Board, 
  submitted by Chairman Chaffetz.................................    68


                           EPA MISMANAGEMENT

                              ----------                              


                        Thursday, April 30, 2015

                   House of Representatives
       Committee on Oversight and Government Reform
                                            Washington, DC.
    The Committee met, pursuant to notice, at 9:05 a.m. in room 
2154, Rayburn House Office Building, the Honorable Jason 
Chaffetz (chairman of the Committee), presiding.
    Present: Representatives Chaffetz, Duncan, Jordan, Walberg, 
Amash, Gowdy, Lummis, Massie, Meadows, DeSantis, Mulvaney, 
Buck, Walker, Carter, Grothman, Palmer, Cummings, Maloney, 
Norton, Clay, Lynch, Kelly, and Lawrence.
    Chairman Chaffetz. The Committee will come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    Once again, we find ourselves in a hearing examining the 
management failures at the EPA. We have seen numerous examples 
of fraud, unprofessional behavior, cronyism and outright theft 
at the EPA.
    The most egregious example involved Mr. John Beale. Mr. 
Beale did not work for a decade while claiming to work for the 
CIA, a complete lie that his supervisors blindly accepted as 
fact. This is just one example among many of the glaring 
management failures at the EPA.
    It is well past time that someone be held accountable for 
these management failures. Today, we will discuss more problems 
concerning EPA employees, including the outrageous behavior of 
now retired EPA employee Peter Jutro.
    Mr. Jutro was the Acting Associate Administrator for the 
EPA Office of Homeland Security. He also happens to be a serial 
sexual harasser. As a result of an Inspector General 
investigation, we now know that Mr. Jutro sexually harassed at 
least 16 women while working at the EPA.
    Even worse, EPA senior management was aware of his history 
of harassing women but continued to promote him. EPA management 
never even took the time to talk to his direct supervisor who 
had verbally warned Mr. Jutro several times about his 
unacceptable behavior.
    In essence, there was no consequence for this abhorrent 
behavior. By turning a blind eye, EPA management allowed at 
least six more women to be harassed by Mr. Jutro. We know this 
because of the good work by the men and women who serve in the 
Inspector General's office.
    When Mr. Jutro was finally placed on paid leave, he quickly 
retired with full pension benefits to avoid being interviewed 
by the IG about these allegations. Part of what I hope we look 
for in this Committee moving forward are ways the Inspector 
General can continue their investigation and continue to be 
able to compel someone to participate in their investigations 
and that they cannot just simply retire and get a get out of 
jail free card.
    In addition to Mr. Jutro, there are continuing problems 
with EPA employees who watch pornography at work. To date, we 
are aware of two employees who have admitted to watching 
pornography several hours each and every day. It is a miracle 
they did any work at all--maybe they didn't. We don't know.
    Even more insulting to taxpayers is that after the 
Inspector General reported these abuses, the porn-watching 
employees were placed on paid administrative leave for almost a 
year before anybody even tried to fire them.
    These people were being paid roughly in the neighborhood of 
about $120,000 a year. One of these employees finally retired 
after almost a year of paid leave. The other employee is still 
collecting his government salary and he too has been on paid 
administrative leave for almost a year. American taxpayers 
continue to pay this person.
    If you sit watching hours of porn on your government 
computer, fire them. Fire them. Then let them try to come back 
but there is so much overwhelming evidence about what these 
people were doing.
    This pattern of paid administrative leave followed by 
retirement with full benefits is totally and wholly 
unacceptable. It rewards bad behavior and leaves taxpayers 
footing the bill.
    It is totally unfair to suggest that most, all or anything 
in between of these employees are participating in this 
abhorrent behavior. Most of the people, the overwhelming 
majority of the people who work at the EPA and other 
departments and agencies within the Federal Government are 
good, honest, decent people, working hard, trying to do the 
right thing. They are patriotic in their approach.
    I think we, as a body, as an institution, the EPA and 
others, the Congress, we have a duty and obligation to the 
American taxpayer to fire the people who are abusing the 
system. Get rid of them. Kick them out of there.
    That does not seem to happen and the EPA, from our 
viewpoint, our perch here--we have some good Inspector Generals 
who have done some good, quality work but when we know about 
these people who are participating in sexual harassment, more 
than a dozen times, and that person is not fired, that is a 
huge problem.
    A lot of good people work at the EPA and do a lot of good 
and important work, but when we have a bad apple, we have to 
get rid of them.
    Some of these good employees became victims of harassment 
due to these continued management failures. That is the sad 
thing. If somebody is going to do something stupid, if you do 
not take care of it immediately the first time, then there are 
more victims. That is the case and that is why we are here 
today.
    In addition, high performing employees become discouraged 
when they see management rewarding bad behavior or ignoring 
clear signs of misconduct. There can probably be nothing more 
demoralizing than knowing that somebody has this problem that 
is affecting others, nothing is done about it and then they get 
promoted.
    The Committee will continue to look at exploring 
legislative solutions to encourage agencies to weed out the bad 
actors while protecting the rights of the vast majority of good 
employees, creating a good, positive work environment so that 
we can get the job done.
    I have said this several times, we, as a Nation, look at 
these things in an open, transparent way and do so in the 
effort to make it better. That is why we have this panel here 
today.
    Chairman Chaffetz. I now recognize the Ranking Member, Mr. 
Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Before I begin, I would like to take a minute to thank you, 
Mr. Chairman, for your leadership. Over the last few days, 
there have been all kinds of things in the news but one thing 
that kind of slipped under the rug for many reasons is the 
NFL's decision to waive its tax exempt status.
    Mr. Chairman, you worked very hard on that. You called a 
bipartisan meeting where you and I sat down with the NFL folks. 
You let them know, in a bipartisan way, we were concerned about 
this issue.
    I know that you have filed legislation, something that is 
very near and dear to you. I know a lot of people are going to 
take credit for it, or try to. Often things that are done 
without legislation, when we sit down and work together, can be 
accomplished.
    I compliment you and your staff for that. I am hoping that 
the NFL understands that we had at least two other issues about 
which we were concerned--the whole thing of concussions and we 
wanted to look at what they are doing with regard to spousal 
abuse, relationship abuse and those kinds of things.
    I just wanted to compliment you and thank you for your 
leadership on that.
    Chairman Chaffetz. Will the gentleman yield?
    Mr. Cummings. Yes, of course.
    Chairman Chaffetz. Thank you. I appreciate it and I think 
it does demonstrate that in a bipartisan way, we can be more 
effective. Even though it is behind the scenes, I appreciate 
those comments because we did this in unison and it had the 
desired effect. We appreciate the NFL for taking the proactive 
nature and making this adjustment. I think it is the right 
thing to do. I think it is the fair thing to do.
    Our thoughts and prayers are with you. I do not know how 
you are here. When I turn on the television, you are up in 
Baltimore dealing with some very difficult situations. It is 
admirable what you are doing to talk about the calm and the 
peace. I admire you for what you are doing and how you are 
doing it. You are making us proud.
    Again, our thoughts, hearts and prayers are with you. I am 
amazed that you are able to be here this morning but I thank 
you for being here.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I thank you for calling today's hearing. Let me start by 
making a key point that I know we all agree on.
    The overwhelming majority of Federal workers are extremely 
hard working and many devote their entire lives to serving this 
Nation. We recognize their service to our country and we honor 
and we thank them.
    One of the things the Chairman said a moment ago, when we 
have cases like the ones we are addressing today, it only goes 
against the morale of those great employees. We want to make 
sure we do not tarnish their great reputations by the conduct 
of a few.
    We also know that with a work force of millions of people, 
there are bound to be individuals who waste government 
resources, squander taxpayer dollars, violate the law, 
unfortunately, and fail in their core responsibilities as 
employees of this great United States of America.
    Today, we will focus on a handful of these employees who 
worked at the Environmental Protection Agency and abused the 
public trust by viewing pornography at work. In each case, the 
employee signed a sworn Statement admitting to this misconduct.
    We have now obtained these sworn admissions. Based on their 
own words--nobody else's, but their own words--there is no 
doubt that these employees should have been fired. There is no 
doubt whatsoever.
    The questions for today's hearing are these. Why were some 
employees fired quickly while others were allowed to stay in 
their jobs for a long time? Something is wrong with that 
picture.
    Why was there inconsistency in removing these employees? 
Are there ways to improve this process going forward?
    One of the things that the Chairman and I have discussed 
with regards to some other agencies is when you have employees 
who are treated one way and others treated another way, it 
kills morale. It kills it.
    People just want a level playing ground and want to know if 
they do something right, they are applauded just like everyone 
else, if they do something wrong, they want to know they are 
going to be disciplined, just like everyone else. They can 
accept that because those are the rules. However, when they see 
a deviation, that is a problem.
    Based on the documents the Committee has obtained, I do not 
believe we need more legislation to address this issue. I 
certainly want to hear from our witnesses on that. Instead, I 
believe the EPA, the Inspector General and the Department of 
Justice need to coordinate and share information more freely 
and more quickly.
    For example, EPA and IG officials responded very quickly in 
the case of Thomas Manning, a computer specialist in Chicago 
regional office who admitted possessing child pornography. He 
admitted it.
    The EPA notified the IG of possible criminal conduct on 
March 13, 2013. The next day, the IG obtained Mr. Manning's 
sworn Statement in which he admitted that he looked at ``child 
pornography on the EPA computer.''
    On that same day, the EPA placed this employee on 
administrative leave, the same day, blocked his access to EPA 
servers and barred him from EPA buildings--the same day. A 
month later on April 10, the EPA placed him on indefinite 
suspension without pay.
    On August 5, the IG provided the EPA with a copy of the 
employee's sworn admission and the agency initiated termination 
proceedings. He later pled guilty to possessing child 
pornography and was sentenced to 30 months in Federal prison.
    In other cases, however, this process took much, much 
longer. For example, on September 11, 2013, the IG received a 
complaint that a GS-14 geologist had downloaded thousands of 
pornographic images into EPA servers.
    One week later, IG agents went to talk to this employee and 
personally observed him viewing pornographic images on his work 
computer. The same day, this employee signed a sworn admission 
in which he explained how much time he spent at work surfing 
the Internet for pornographic images.
    Although he Stated ``it varied from day to day,'' he 
admitted that on days when he had little work to do, ``the 
surfing may be as much as five to 6 hours per day.'' A work day 
is only 8 hours.
    This sworn admission of wrongdoing by the employee should 
have been enough to initiate termination proceedings against 
him. However, the IG did not provide a copy of the admission to 
the EPA for at least 9 months. Even then, nearly a year and a 
half passed before the EPA finally issued a notice to remove 
him.
    As I close, there was a similar delay in another case when 
a GS-14 employee, an environmental specialist, admitted to the 
IG that he also viewed pornographic images while at work.
    The IG also obtained a sworn Statement from this employee 
in which he admitted looking at pornographic pictures for up to 
an hour per day. Yet, the EPA did not initiate removal action 
until 10 months after the employee admitted to this misconduct.
    I understand that the decisions in these cases may have 
been affected by ongoing criminal investigations by the U.S. 
Attorney and there may have been restrictions on what evidence 
could be shared and when, but if an employee admits to 
misconduct, if he actually signs a sworn Statement detailing 
what he did wrong, it seems to me--maybe I am missing 
something--that we should be able to share that information 
immediately so the agency can use it in termination 
proceedings.
    Mr. Chairman, I thank you for calling today's hearing. I 
hope we can work together to develop concrete proposals to 
speed up this process, increase information sharing and ensure 
the EPA, the IG and the Department of Justice all have the 
ability to use as much evidence as possible against an employee 
who engages in this type of activity.
    With that, Mr. Chairman, I thank you for your courtesy and 
I yield back.
    Chairman Chaffetz. Thank you.
    I hope those from the EPA understand the outrage we have on 
both sides of the aisle. This is totally and wholly 
unacceptable. This will be a good hearing and I appreciate your 
participation.
    I will hold the record open for five legislative days for 
any members who would like to submit written Statements.
    I will now recognize our panel of witnesses.
    We are pleased to welcome back to the Committee--he has 
testified many time before us--we always appreciate having the 
Honorable Arthur Elkins, Inspector General, Office of the 
Inspector General, United States Environmental Protection 
Agency.
    Mr. Patrick Sullivan is Assistant Inspector General for 
Investigations, Office of Inspector General, United States 
Environmental Protection Agency.
    Mr. Stanley Meiburg is Acting Deputy Administrator, United 
States Environmental Protection Agency.
    Mr. John Reeder is Deputy Chief of Staff at the 
Environmental Protection Agency.
    Welcome to you all.
    Pursuant to Committee rules, all witnesses will be sworn 
before they testify. Please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Chairman Chaffetz. In order to allow time for discussion, 
please limit your opening Statements to 5 minutes but we are 
pretty liberal on that policy. Your entire written Statement 
will be made a part of the record.
    My understanding is Mr. Reeder, you have combined your 
Statement with Mr. Meiburg. We will start with Mr. Elkins and 
go from there.
    Mr. Elkins.


                       WITNESS STATEMENTS

                   STATEMENT OF ARTHUR ELKINS

    Mr. Elkins. Good morning, Chairman Chaffetz, Ranking Member 
Cummings, and members of the Committee.
    I am Arthur Elkins, Inspector General of the EPA. I will 
discuss two matters. First, I will report on the current status 
of impediments arising from the EPA's Office of Homeland 
Security and second, I will discuss the importance of 
immediately reporting all employee misconduct to the OIG.
    During a September 14 hearing before this Committee, I 
testified that the EPA had asserted there was a category of 
activity defined as intelligence to which the OIG may have 
access only subject to the EPA's granting us permission.
    This situation impeded the OIG's ability to investigate 
threats against EPA employees and facilities, conduct certain 
misconduct investigations and investigate computer intrusions.
    Since that hearing, senior OIG officials have met multiple 
times with senior agency officials to address a range of issues 
falling under these general categories. We have theoretically 
agreed that there is no category of activity at EPA to which 
the OIG does not have unfettered access.
    However, at least two crucial impediments remain. First is 
a 2012 MOU that EPA entered into unilaterally with FBI. EPA 
asserted that the MOU precluded it from sharing information 
with the OIG. However, FBI senior management has since 
confirmed to EPA that the FBI does not require withholding 
information from the OIG.
    During meetings with the EPA, we have Stated that any MOU 
addressing these issues must be a three-way MOU among EPA, OIG 
and the FBI. EPA has not rescinded the existing MOU, even 
though its terms allow the agency unilaterally to rescind it 
any time it chooses, nor has the agency accepted our proposed 
elements for a revised MOU.
    The second crucial OHS related impediment is that OHS 
continues to have a use of criminal investigators while lacking 
any investigative authority. The OHS examples are fundamental 
challenges to the legal authority of the OIG to do its job.
    Under the theory being pursued by Administrator McCarthy, 
the head of an agency could preclude an IG from exercising 
responsibilities and authorities assigned under the IG Act by 
simply declaring that because an activity falls within an 
agency program for operation, that activity is exempt from OIG 
jurisdiction.
    Agency heads would be empowered to decide when the IG Act 
is applicable and when it is not. If accepted, this approach 
would allow an agency to create out of whole cloth unilateral 
exemptions to the IG Act where no such exemptions currently 
exist.
    Late yesterday afternoon, I received two emails from the 
Administrator advising of an eminent withdrawal of the MOU. 
While I sincerely appreciate the spirit of the proposal, the 
Stated terms fall disappointingly short of addressing the OIG's 
concerns.
    Without real clarity in this matter, we unfortunately 
continue to operate in a fog. This is the current State of 
affairs at EPA.
    While Mr. Sullivan's testimony will address in greater 
detail the Peter Jutro investigation about which the Committee 
has asked, I want to address that case with a broader view as 
to why it matters relative to the OIG's oversight role.
    We found that an SES level EPA employee engaged in 
offensive and inappropriate behavior toward at least 16 women, 
most of whom were EPA coworkers. Further, we found that very 
senior EPA officials in the Administrator's office were made 
aware of many of these actions and yet did nothing.
    They did not tell the Administrator and they did not report 
any of this knowledge to the OIG. In fact, they approved Jutro 
for a detail assignment to be Acting Associate Administrator 
for OHS. Subsequently, Jutro engaged in such behavior toward an 
additional six women.
    The necessary implication of the overall structure and 
certain explicit provisions in the IG Act is that the OIG will 
only be able to carry out its statutorily assigned functions if 
it receives cooperation from the agency.
    Further, both the current and previous EPA Administrators 
have sent memoranda to the entire EPA work force setting forth 
an expectation of cooperation with the OIG. The OIG's 
investigation was negatively impacted and delayed by the fact 
that these senior EPA officials did not notify the OIG about 
their knowledge of underlying incidents.
    This is not the first time that I have raised an alarm in 
regards to these issues to EPA leaders and at congressional 
hearings over the past 5 years. By this time, I have to 
question the priority or the sense of urgency on the part of 
agency leaders to resolve these issues.
    Cooperation, unlimited access and immediately reporting 
fraud, waste and abuse to the OIG are necessary tools that 
enable an OIG to fully accomplish its mission. Yet, OIGs have 
control over none of these tools, nor ultimately can we compile 
solutions.
    It is essential that the tenets of the statute directing 
the OIG's work remain intact, well supported and not subject to 
arbitrary revisions by agency heads. Finally, I would like to 
reiterate my appreciation for this Committee's support in that 
regard.
    Mr. Chairman, I would be pleased to answer any questions 
that you or Committee members may have.
    [Prepared Statement of Mr. Elkins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Chaffetz. Thank you, Mr. Elkins.
    Mr. Sullivan, you are now recognized for 5 minutes.


                  STATEMENT OF PATRICK SULLIVAN


    Mr. Sullivan. Good morning, Chairman Chaffetz, Ranking 
Member Cummings and members of the Committee.
    I am Patrick Sullivan, Assistant Inspector General for 
Investigations for the EPA.
    My testimony will highlight several cases of EPA employees 
who viewed and downloaded pornography on government-issued 
computers, as well as our investigation of a senior level 
official who exhibited inappropriate behavior toward several 
women over many years.
    First, I will discuss employee A, who downloaded more than 
7,000 potentially pornographic files into an EPA server.
    In September 2013, an OIG special agent went to the 
employee's work location and observed the employee viewing 
adult pornography. The employee admitted that for approximately 
two to 6 hours daily, during his assigned work hours, he had 
viewed and downloaded pornographic images on an EPA computer.
    We reviewed his laptop and discovered about 20,000 
additional pornographic files. The employee advised that he was 
not doing anything wrong by accessing pornographic websites 
since he was completing his required work.
    During the period he viewed the pornography, he received 
several performance awards, including awards up to $2,000 and a 
time off award.
    He was then placed on administrative leave by EPA in May 
2013. In March 2015, the U.S. Attorney's Office declined 
prosecution. Earlier this month, EPA notified us that this 
month that the employee had retired.
    Next, I will discuss employee B who had been witnessed 
viewing pornography on his government laptop computer during 
work hours by a child who happened to be visiting the office 
during Bring Your Daughters and Sons to Work Day.
    The employee admitted that he viewed pornography at work 
between one to 4 hours per day. He said that approximately 30-
40 percent of the data stored on his external electronic media 
devices contained pornography. Approximately 3,500 pornographic 
images were recovered from the employee's laptop and external 
media.
    EPA placed the employee on paid administrative leave in May 
2014. In March 2015, the U.S. Attorney's Office declined this 
case for prosecution. Last month, the EPA notified us that the 
employee had been proposed for removal.
    The third investigation involves Thomas Manning, an IT 
specialist, who downloaded child pornography. He admitted to 
viewing child pornography on the EPA computer and attempted to 
erase it afterward.
    We found that Manning also possessed tens of thousands of 
images of child pornography on a personal hard drive stored at 
work. He resigned while under investigation in August 2013. He 
later pleaded guilty in July 2014 to possession of child 
pornography.
    Earlier this month, Manning was sentenced to 30 months in 
Federal prison to be followed by 5 years of supervised release.
    Last, I would like to discuss our investigation involving 
Peter Jutro. In August 2013, we received an allegation that 
Jutro, the Acting Associate Administrator for the EPA Office of 
Homeland Security engaged in a series of interactions involving 
a 21-year-old female intern from the Smithsonian Institution.
    The OIG's allegations and findings included the following. 
In July 2014, Jutro engaged in interactions involving a 21-
year-old female intern who reported him to a supervisor and 
indicated that she was uncomfortable and scared.
    In his office, he asked the intern what turned her on and 
what excited her. He also took photographs of the intern's face 
and toes. Contrary to the intern's Statement, Jutro denied 
brushing up against, attempting to kiss her, or grabbing the 
intern's buttocks but he conceded he might have placed his hand 
on her back.
    From 2004 through July 2014, Jutro engaged in unwelcomed 
conduct with 16 additional females, which included touching, 
hugging, kissing, photographing, and making double entendre 
comments with sexual connotations.
    We substantiated that Jutro had violated building entry 
security procedures when he bypassed security checkpoints and 
bringing the intern into EPA headquarters. We did not 
substantiate the allegation that Jutro discussed classified 
information in violation of Federal requirements.
    However, we did substantiate that EPA senior level 
officials who were aware of multiple claims of unlawful conduct 
by Jutro. They did not take any actions against Jutro as a 
result of receiving this information about him.
    Several senior officials were advised prior to or 
immediately following Jutro's February 2014 selection as Acting 
Associate Administrator for EPA's OHS that he had exhibited 
inappropriate behavior toward women.
    Our case was negatively impacted and delayed due to the 
fact that these senior officials did not notify us about their 
knowledge of other instances of Jutro's inappropriate behavior. 
This case revealed no criminal violations and was therefore 
investigated as a purely administrative matter.
    No criminal declination was sought or received from the 
U.S. Attorney's Office. Jutro retired from Federal service in 
January 2014.
    We will continue to work closely with the agency, our law 
enforcement partners and Congress to ensure that allegations of 
employee misconduct are quickly and properly addressed.
    That concludes my prepared Statement. Thank you, Mr. 
Chairman.
    [Prepared Statement of Mr. Sullivan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
        
    Chairman Chaffetz. Thank you, Mr. Sullivan.
    We will now recognize Mr. Meiburg for 5 minutes.


                  STATEMENT OF STANLEY MEIBURG


    Mr. Meiburg. Thank you very much, Mr. Chairman, Ranking 
Member Cummings and members of the Committee. It is my pleasure 
to be here to testify today.
    I am Stan Meiburg, the Acting Deputy Administrator of the 
Environmental Protection Agency. I am accompanied here today by 
John Reeder, one of the agency's Deputy Chiefs of Staff. Again, 
I appreciate the opportunity to be here today.
    I have worked for EPA for over 36 years in four locations, 
starting here in Washington, our offices in Research Triangle 
Park in North Carolina, and in our regional offices in Dallas 
and Atlanta.
    In both of those regional offices, I served as the Deputy 
Regional Administrator, which is a senior career office in that 
region. I held that position in EPA's Region IV office in 
Atlanta for the last 18 years of my career until my retirement 
last year.
    To my surprise, last fall I received a phone call from EPA 
Administrator Gina McCarthy offering me the opportunity and the 
honor to return to the agency to serve as the Acting Deputy 
Administrator, a position that also serves as the Chief 
Operating Officer for the agency. That is the position I hold 
today.
    John Reeder, who is joining me today, is another long time 
civil servant who serves as the career Deputy Chief of Staff 
for EPA. John previously served overseas in the military from 
1979-1981 and began his career in Federal service as a 
Presidential management intern in 1987. He has served in his 
current position as Deputy Chief of Staff since 2010.
    One of the reasons I came back to EPA was to again have the 
opportunity to work with the exceptional and hardworking people 
of this agency. I believe in the people of EPA. I believe in 
them because for over 36 years, I was one of them. I know how 
hard our 15,000 employees work day in and day out on behalf of 
the American people.
    EPA employees who engage in serious misconduct are not 
representative of the broader work force. All of the EPA 
employees who work so hard especially deserve that we deal with 
misconduct or poor performance swiftly, with integrity and 
professionalism.
    They further deserve our attention to their professional 
growth so that collectively we are able to keep our eyes on the 
mission of the agency.
    Since returning to EPA, I have had the pleasure of working 
with John and other senior agency leaders to increase our 
support of agency employees and managers with the goal of 
continued improvement of our work force.
    In particular, we are working to improve our support for 
our first line supervisors, develop a new and highly skilled 
next generation of senior leaders and to streamline our 
processes.
    First line supervisors have some of the hardest jobs at any 
organization and EPA is no exception. Our goal is to provide 
our first line supervisors with the right tools and information 
to enable them in performing their essential role at the 
agency, including addressing poor performance or improper 
conduct early in those rare instances where it is necessary.
    Earlier this month, we launched a revised and updated first 
line supervisor's tool kit, the first comprehensive updating of 
that resource in 15 years. Through the coming year, we will be 
convening focus groups of first line supervisors to ensure we 
understand their needs and see how, as their senior leaders, we 
can make them better.
    The agency has also placed a renewed emphasis on developing 
the next generation of senior leaders at the EPA. Earlier this 
spring, I announced the opening of EPA's first Senior Executive 
Service Candidate Development Program in many years. I am proud 
that EPA will enroll more than 20 candidates in the SES 
Candidate Program this year.
    In closing, EPA has an honorable, 45-year history of 
protecting public health and the environment for the people of 
the United States. I am proud of the work accomplished every 
day by the employees of EPA and excited about our efforts to 
continue to improve and better support our managers and staff 
across the agency.
    With that, we look forward to any questions you may have.
    [Prepared Statement of Mr. Meiburg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
           
    Chairman Chaffetz. Thank you.
    I will now recognize myself for 5 minutes.
    Mr. Reeder, how long have you worked at the EPA?
    Mr. Reeder. Mr. Chairman, 27 years.
    Chairman Chaffetz. Between the two of you, you have about 
60 years of experience at the EPA. We thank you for your 
service, but I do not understand with Mr. Peter Jutro.
    There were 13 times, 13 times that women had reported 
matters to the EPA about some form of sexual misconduct, sexual 
harassment and yet it took more than 13 times before you got 
serious about it. It finally percolated to the point where you 
were actually going to pursue it and then he just retires. He 
was in his 70's, correct?
    Mr. Reeder. Mr. Chairman, I do not know his age.
    Chairman Chaffetz. My understanding is he is roughly 70 
years old. Why does it take 13 times before you all get serious 
about it? That is what is so infuriating.
    Two of these incidents of sexual misconduct happened at the 
White House--at the White House. Who wants to answer that 
question? Why does it take so long?
    Mr. Reeder. Mr. Chairman, I do not know where that comes 
from. Maybe the Inspector General is in a better position to 
answer the question about the incidences because I believe many 
of those were discovered in their investigation and were not 
raised to managers.
    Chairman Chaffetz. Mr. Elkins or Mr. Sullivan? My 
understanding is that 13 times these matters had been reported 
to EPA management.
    Mr. Sullivan. Yes, it was reported, in most cases, to the 
victim's immediate supervisor--in most of the cases, not in 
every case. Some of the victims came forward during our 
investigation.
    At least one of the incidents at the White House was 
reported immediately during the alleged sexual harassment and 
inappropriate conduct by Mr. Jutro. The victim immediately 
communicated with her supervisor what Mr. Jutro had done.
    Chairman Chaffetz. That happened in 2009-2010, something 
like that?
    Mr. Sullivan. The last incident happened on or about July 
29, 2014.
    Chairman Chaffetz. One of the ones at the White House that 
was reported, at least according to what I read in here, was 
back in 2009-2010.
    Mr. Sullivan. Yes, and the second one happened in July 
2014.
    Chairman Chaffetz. I do not understand why someone has to 
ever tolerate this and then tolerate such mismanagement that 
you do not deal with it. These people were promoted.
    Go ahead, Mr. Reeder.
    Mr. Reeder. Thank you, Mr. Chairman.
    The way the sexual harassment policy works at the agency is 
if an employee complains about behavior, they would report that 
behavior to the supervisor. In most instances, those do not 
become formal cases and the supervisor is obligated--and I hope 
they have done this--the supervisor is obligated to take some 
action to either end the behavior or if it is more serious, to 
conduct a more formal review and investigation.
    I cannot answer for the supervisors who may have been 
involved with Dr. Jutro over the course of his career.
    Chairman Chaffetz. Time is limited here. Under your policy, 
sexual harassment, first offense is either written reprimand or 
up to removal. The second offense is a 14-day suspension up to 
removal. There were more than two of those. There were more 
than two of those and that did not happen. The third offense is 
a 30-day suspension up to removal. Why didn't you follow your 
own policy in this? This person ultimately got promoted.
    Mr. Reeder. I cannot answer the question about what 
happened in those instances before he came to the Office of the 
Administrator. I am sorry, Mr. Chairman.
    Mr. Meiburg. Mr. Chairman, let me just speak to a couple of 
things.
    Since the incident that led to the Inspector General 
investigation occurred before I came back to the agency, I 
cannot really speak to that, but I will say that the issues 
that were uncovered in the Inspector General investigation were 
a result of the agency's asking the Inspector General to do the 
investigation following the behaviors that occurred with the 
Smithsonian intern.
    Chairman Chaffetz. Do you dispute the idea that 13 times 
women reported to somebody in management that this was a 
problem and this person was getting promoted along the way? He 
got bonuses.
    Mr. Meiburg. Where I was going with this was simply to 
thank the Inspector General.
    Chairman Chaffetz. That is not an answer. I want you to do 
your job. I want you to fire these people who are sexually 
harassing people at work. I want you to fire them. I want you 
to live up to the obligations that you put out in your own 
manuals. That did not happen in this case. Do you dispute that?
    Mr. Meiburg. What I do not dispute is that kind of behavior 
was appalling and is intolerable.
    Chairman Chaffetz. You can say that but then there is no 
consequence and the guy gets promoted. It makes the situation 
worse. Would you disagree with that?
    Mr. Meiburg. Mr. Chairman, again, in the specific case of 
Mr. Jutro, the fact that the Inspector General was able to help 
in identifying things that had not otherwise come to light was 
useful and I think contributed and backed up the swift action 
that was taken.
    Chairman Chaffetz. Swift action?
    Mr. Meiburg. Yes.
    Chairman Chaffetz. Where do you think you had swift action?
    Mr. Meiburg. When the report came from the Smithsonian 
intern.
    Chairman Chaffetz. When was the first time a woman stepped 
up and said this guy is harassing me? When was that time?
    Mr. Meiburg. When the agency got the information from the 
Smithsonian intern, they acted immediately and contacted the 
Inspector General. They took his badge, barred him from the 
building and he never came back.
    Chairman Chaffetz. Mr. Sullivan and Mr. Elkins, to suggest 
that they acted swiftly upon the first time, you should not 
have to have the Inspector General go through this. Management 
should be able to deal with this immediately.
    According to your own policy, that is what is supposed to 
happen, but that is not what is happening at the EPA.
    Mr. Elkins or Mr. Sullivan?
    Mr. Elkins. Mr. Chairman, it is my understanding of the 
facts that members of the Administrator's office had notice 
that Mr. Jutro had some suspect conduct in the past. That was 
information they had prior to Mr. Jutro actually being assigned 
to have the Acting position as the Associate Administrator of 
OHS.
    None of that information was provided to us prior to the 
incident with the intern. Mr. Sullivan may be able to give you 
a little bit more details.
    Mr. Sullivan. Mr. Chairman, on or about February 20, 2014, 
when Mr. Jutro was being vetted for the position, the then 
Deputy Administrator, Mr. Perciasepe asked the Acting Associate 
Deputy Administrator, Ms. Feldt to speak to Mr. Jutro.
    During that discussion, Mr. Jutro exhibited offensive 
behavior to Ms. Feldt that she felt was completely 
inappropriate based on his comments. The next day, a senior 
executive--who was a victim reported in our report of 
investigation--reported to Ms. Feldt, with great specificity, 
some of Mr. Jutro's prior behavior.
    Ms. Feldt told us she then took that information from the 
victim, who was a senior executive, and reported back to Mr. 
Perciasepe and other senior executives in the Office of the 
Administrator urging them not to appoint him to the position of 
Acting Associate Administrator.
    Chairman Chaffetz. What happened?
    Mr. Sullivan. Nothing. He was appointed. They did some 
subsequent vetting, but we are not quite sure exactly what that 
vetting was.
    Chairman Chaffetz. My time has well expired. I will now 
recognize the Ranking Member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I would like to ask why the EPA moved so quickly to remove 
some employees but so slowly to remove others? Let us start 
with the case where the process seems to have worked quickly.
    Thomas Manning was a computer specialist in EPA's Chicago 
office who admitted viewing child porn on his work laptop. On 
March 14, 2013, IG agents interviewed Mr. Manning and he signed 
a sworn Statement admitting that he used his EPA computer to 
``search the Internet to view adult and child pornography.''
    The EPA immediately put Mr. Manning on administrative 
leave, blocked his access to EPA servers and banned him from 
the building. On April 10, less than a month later, the EPA 
placed Mr. Manning on indefinite suspension without pay.
    On August 5, the IG provided the EPA with a copy of the 
employee's sworn admission and the agency then initiated 
termination proceedings. Today, Mr. Manning is currently 
serving a 30 month prison sentence.
    Mr. Sullivan, what is your view on how this case was 
handled by your office and the EPA? Was it handled quickly, in 
your view?
    Mr. Sullivan. It was handled very quickly and 
professionally by the EPA Region V staff. One of the 
differences here, Mr. Cummings, is that Mr. Manning admitted to 
committing a felony. The viewing and possession of child 
pornography is a felony under Federal statutes.
    Once he gave us his confession confessing to a felony, we 
shared that with the Region V officials and they initially put 
him on paid leave. They changed that to unpaid leave and then 
initiated removal proceedings essentially because he had 
admitted to a felony.
    The U.S. Attorney's Office had given us permission to share 
everything at that point with the Region V folks.
    Mr. Cummings. I am assuming he was aware this admission 
could be used against him in a criminal proceeding?
    Mr. Sullivan. Yes, and we also had permission from the U.S. 
Attorney's Office to use that confession or to provide it to 
the Region V folks in Chicago for them to use in their 
administrative action. It was done on a dual track, 
simultaneously.
    Mr. Cummings. Let us talk about the case that took much 
longer. On September 11, 2013, the IG received a complaint that 
a GS-14 geologist had downloaded thousands of pornographic 
images. One week later, IG agents went to talk to this employee 
and personally saw him--this is amazing--personally saw him 
viewing pornographic images on his work computer. You just 
walked in on him, is that what happened?
    Mr. Sullivan. That literally is what happened. The agent 
went over to interview him, walked to his workspace and 
observed him in real time viewing pornographic images.
    Mr. Cummings. This employee signed a Statement admitting 
that he surfed the Internet for pornography ``as much as five 
to 6 hours per day.'' Again, an employee was saying, I did it. 
He signed an admission. In this case, however, the IG did not 
provide a copy of the sworn admission to EPA until June 19, 
2014, 9 months later.
    Inspector General Elkins, I am trying to understand this. 
Why would it take 9 months to provide the employee's signed 
Statement to EPA?
    Mr. Elkins. Representative Cummings, I think I would like 
to defer to Mr. Sullivan who has the specific facts on that.
    Mr. Cummings. Very well. Did we have a felony here?
    Mr. Sullivan. No, there was no felony here per the viewing 
of adult pornography. The potential felony and the theory we 
were pursuing is that the geologist--we cannot mention his name 
here--was committing a violation of 18 USC 641, the theft of 
government funds, because he certified on his timecard that he 
worked 80 hours per week but by his own confession, he worked 
significantly less than 80 hours a week because between 2, 4 
and 6 hours a day he was viewing pornography.
    The U.S. Attorney's Office initially accepted that theory 
and was preparing a criminal prosecution against the geologist. 
Therefore, we verbally briefed the agency, the supervisors and 
the Labor Employee Relations attorney as to exactly what the 
gentleman admitted to, but we finally got permission from the 
U.S. Attorney's Office to physically turn over the confession. 
We got specific permission from the U.S. Attorney's Office for 
the agency to pursue parallel administrative actions similar to 
what happened with Mr. Manning.
    Mr. Cummings. I see.
    Mr. Meiburg, even after the IG provided the sworn 
Statement, it took another 9 months for the EPA to initiate 
removal proceedings. Why is that?
    Mr. Meiburg. Mr. Cummings, thank you. Let me must State the 
obvious, that viewing pornography has no place at EPA.
    Mr. Cummings. I got that, now answer my question.
    Mr. Meiburg. Right. In the case of the Chicago instance 
that you mentioned, there was, in fact, a reasonable cause to 
believe the employee committed a crime for which a sentence of 
imprisonment could be imposed. That gave us the ability in that 
case to act as Mr. Sullivan described and have that employee 
immediately suspended without pay.
    In the case of the employees otherwise, we were waiting for 
a declination of prosecution from the U.S. Attorney's Office 
because we do not want to interfere with the prosecution of an 
investigation, a crime or any other activity.
    Mr. Cummings. Did the U.S. Attorney ask you for that?
    Mr. Meiburg. We asked to make sure we knew when that was 
the case, so we could then proceed.
    Mr. Cummings. No, no, no, you did not answer my question. 
Did the U.S. Attorney tell you what you just said? Did they 
tell your folks at EPA?
    Mr. Meiburg. I do not know the answer to that question.
    Mr. Cummings. Do you know whether there is a document that 
says that, that you may have in your possession?
    Mr. Meiburg. I do not know. I do not know the specifics of 
that case enough to say. I do know that it is our general 
practice to not try to pursue an administrative action----
    Mr. Cummings. Wait a minute now. Mr. Sullivan, do you know 
anything about this piece? You would have dropped out of it by 
now?
    Mr. Sullivan. No, sir.
    Mr. Cummings. Tell me, do you know about the U.S. Attorney 
asking the department not to proceed for a while? Do you know 
anything about that?
    Mr. Sullivan. Just the opposite. We received specific 
permission from the U.S. Attorney's Office for the EPA 
Administrator's office and the powers to be to pursue parallel 
administrative action.
    Mr. Cummings. That is what I thought you said.
    Mr. Sullivan. Yes, sir, that is correct.
    Mr. Cummings. I thought maybe I missed something.
    Mr. Sullivan. No.
    Mr. Cummings. Mr. Meiburg, did you hear that--I am sorry, 
Mr. Sullivan, what were you saying?
    Mr. Sullivan. We communicated that to the geologist's 
supervisor and to the Labor Relations attorneys at EPA.
    Mr. Cummings. In other words, EPA knew they could proceed, 
right?
    Mr. Sullivan. Yes, sir.
    Mr. Cummings. You are saying almost--I am not putting words 
in your mouth but you are saying almost the opposite of what 
Mr. Meiburg just said, I think.
    Mr. Meiburg. I think what there is here and one of the 
lessons from these cases that I completely agree with is that 
there is a need for a better understanding and communication 
between the Inspector General's Office, the Department of 
Justice and our own Labor and Employee Relations people to make 
sure everyone knows the terms of engagement.
    I think people were acting in good faith, believing that 
they did not want to interfere with the potential criminal 
prosecution but as Mr. Sullivan has said----
    Mr. Cummings. Let me give you some advice. In the future, 
if the department is confused, maybe you might want to just 
pick up the phone, dial some numbers and call Mr. Sullivan, if 
they want to know where they stand. You would not mind taking 
that call, would you?
    Mr. Sullivan. Mr. Cummings, not only would we not mind it, 
but in the case of the geologist and the other gentleman who 
was the environmental specialist, we had continual 
collaborative interaction with the agency, the supervisors and 
the Labor Employee Relations staff. We had contact with them on 
a weekly basis and multiple times every month during this 
period of action.
    Mr. Cummings. This is the last question.
    If an employee admits to misconduct and if he signs a sworn 
Statement detailing what he did wrong, we should be able to 
immediately share that information. Mr. Meiburg, is there any 
reason--Mr. Sullivan, I want you to listen to this also--the IG 
and the EPA could not adopt a policy today, not yesterday, 
today, providing that sworn Statements like these will be 
turned over to the agency as soon as possible? Is there 
anything preventing us from doing that?
    Mr. Sullivan. The only thing that would prevent us is that 
once the case is accepted for prosecution, we would have to get 
the acquiescence of the U.S. Attorney's Office before we turned 
over that document, but I cannot imagine that any U.S. Attorney 
would say we cannot turn over the confession to the agency for 
them to take administrative action.
    Mr. Cummings. Mr. Meiburg?
    Mr. Meiburg. I think that is something we would welcome and 
we welcome working with the IG and the Department of Justice.
    Mr. Cummings. I thank you, Mr. Chairman, for your courtesy.
    I really think that if there is a way you all can work that 
out, that would be very helpful. Not every single thing has to 
be legislated, I do not think, but you all should be able to 
work this out.
    I will talk to the Chairman and you all can bring us back 
some type of proposal so we can move on this because at the 
rate we are going, we will be talking about this same stuff--
some of us, if we are still here--ten years from now.
    Mr. Meadows [presiding]. I thank the gentleman.
    The Chair recognizes the gentleman from Michigan, Mr. 
Walberg.
    Mr. Walberg. Thank you, Mr. Chairman.
    As I am listening to this testimony, we have heard it 
before. It appears there may be some need for the taxpayers to 
be protected from the environment of the EPA. It is a concern 
that has to be addressed.
    Mr. Elkins, yesterday you indicated--I believe around 5:28 
p.m., after business hours--you received an email from 
Administrator McCarthy stating that the EPA had rescinded the 
MOU between the agency and the FBI.
    Mr. Elkins, where does Administrator McCarthy's action 
leave the EPA OIG? What are the next steps?
    Mr. Elkins. Thanks for that question.
    Actually, it leaves the whole situation muddier than it was 
before. First of all, let me start out by saying that my office 
has never really had an objection to an MOU with the FBI and 
the EPA on how to move forward. That would create a clear path 
that everybody understands who is on first, who is on second.
    Mr. Walberg. But you are all part of the game?
    Mr. Elkins. We are all part of the game. However, though we 
wanted to a part of that discussion, that never happened. We 
were never a part of the discussion. In effect, what we have 
now is by the Administrator doing away with the MOU--if you 
read the plain language of her email--it pretty much puts 
everything back to square one where the Office of Homeland 
Security will continue to do investigative activities with the 
FBI and will decide when they are going to bring the EPA OIG 
into an investigation. This is untenable. It is dangerous. At 
this stage of the game, we are still in a fog.
    Mr. Walberg. Which leaves a crucial ally tool out of the 
process for people like us as well, representing the taxpayer.
    Mr. Elkins. Yes. To the extent that the FBI has always said 
to the Administrator, just let us know who the point of contact 
is going to be at the EPA so we can work with them. This takes 
away that point, so the FBI does not know. Basically, the point 
of contact is back to the Office of Homeland Security, which in 
the past has excluded my office from participating. It is a 
serious issue.
    Mr. Walberg. The hen house is not guarded.
    Mr. Sullivan, were senior level EPA officials, such as Mr. 
Reeder, cooperative in volunteering information to the OIG in 
order to assist you in uncovering further information about Mr. 
Jutro's past inappropriate behavior and probably more 
importantly, how many times did you have to interview Mr. 
Reeder in order to obtain the information you needed to proceed 
with your investigation?
    Mr. Sullivan. We had to interview Mr. Reeder three times. 
There was a series of different subjects we discussed with him. 
With each interview when we obtained additional information, we 
then asked additional questions, so eventually we got more 
information from Mr. Reeder.
    The first interview was rather limited and we subsequently 
found out that--I do not know whether it was our fault for not 
asking the right questions--we subsequently found Mr. Reeder 
had additional information which he had during the time of the 
first interview but ultimately it was not given to us until 
after the third interview.
    Mr. Walberg. Mr. Reeder, why didn't you give it to them? 
You had the information.
    Mr. Reeder. Congressman, I am not sure what particular 
information Mr. Sullivan is talking about. If you were to make 
it more specific, I am happy to cooperate and answer the 
question.
    Mr. Walberg. If you were listening to the first question, 
it took a series of interviews to get the information that you 
should have had--at least Mr. Sullivan had indication that you 
had it--but there was not a forthcoming in trying to get to the 
bottom of bad behavior.
    Mr. Reeder. I will try to be helpful in clarifying that.
    I believe Mr. Sullivan is referring to something that 
another employee, Lisa Feldt had told me prior to the placement 
of Mr. Jutro in the position. If that is what he is referring 
to, I can certainly address that question.
    Mr. Walberg. Is that what we are referring to?
    Mr. Sullivan. Yes, Mr. Walberg. Ms. Feldt--we found out 
subsequent to Mr. Reeder's first interview--told us 
specifically she discussed her concerns about Mr. Jutro with 
Mr. Reeder and other senior executives. During our first 
interview, Mr. Reeder never told us that.
    Mr. Walberg. My concern, as I listen to this, is that we 
have employees who receive pay while on administrative leave 
for long periods of time, and we have people who can retire to 
get away from some of the impact of their efforts.
    Mr. Elkins, would you be in favor of legislative or other 
fixes that would streamline the process by which Federal 
employees could be terminated, could be prosecuted, would have 
their administrative leave shortened and the impact to the 
taxpayer impacted in a positive way?
    I say this having introduced legislation last term on SES 
streamlining to get at these issues. That legislation is 
upgraded and shortly in the next couple of weeks will be 
introduced as well. Would that be of help to you?
    Mr. Elkins. Let me answer the question this way. I believe 
that justice delayed is justice denied. Whether it is a 
criminal case or an administrative case, employees need quick 
action to determine whether or not there is guilt or 
misconduct.
    Any legislation that sets some sort of timeline, like a 
speedy trial type of instance that requires agencies to move 
quickly.
    Mr. Walberg. Efficiently.
    Mr. Elkins. Efficiently, with a sense of urgency, I think 
would help the agency and the employee.
    Mr. Walberg. Thank you.
    Mr. Meadows. I thank the gentleman from Michigan.
    The Chair recognizes the gentleman from Massachusetts, Mr. 
Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank the witnesses for your attendance.
    I actually think if we are going to look at new 
legislation, and I think we need to, we look at the authorizing 
statute for Inspectors General because the side deal between 
the FBI and the EPA to shut out the Inspector General is 
problematic.
    It takes Congress out, as the gentleman previously 
indicated. There is nobody representing the taxpayer and 
obviously nobody protecting the employees either, the ones that 
were harassed.
    Mr. Elkins and Mr. Sullivan, thank you so much for your 
service. You are both frequent flyers to this Committee and we 
appreciate your great work.
    One of the provisions in the Inspector General statute says 
that when probable cause becomes apparent, you automatically 
have the authority to subpoena when there is probable cause 
that a crime has been committed.
    Certainly either when the tenth, eleventh or twelfth woman 
complained about Mr. Jutro, I think you probably had probable 
cause to intervene and subpoena the records that the EPA was 
withholding from you.
    Certainly when you get a written admission of guilt that 
the person was actually viewing pornography for numerous hours 
during the course of the day, when you have a stipulation that 
they are violating Federal anti-pornography statutes, certainly 
when you have an admission, a stipulation from the defendant 
that they have violated the law, that is probable cause.
    What was the problem, once you had the admission, with 
going forward? It seems this delay for additional evidence 
after the individual stipulated they committed the crime, that 
they are guilty and then there is a nine or 10 month dialog 
about additional evidence. One the defendant admits or 
stipulates they have committed the crime, you don't need any 
more evidence to take action. That is a stipulation and you can 
go ahead, you can go forward. Am I missing something?
    Mr. Elkins. No, sir. Let me try to put this into a bit of 
perspective.
    On the subpoena issue, inspector generals, yes, we do have 
subpoena authority but we cannot use a subpoena against Federal 
employees or Federal agencies. It does not work that way.
    Mr. Lynch. If the statute says you do--as a matter of fact, 
that is the only thing you can do, subpoena the agency that you 
are charged to oversee. That is the way the statute is written.
    Mr. Elkins. No, no, we cannot use subpoenas against Federal 
employees. We can use subpoenas, yes, but not against Federal 
employees.
    To the extent there is an administrative process going on, 
that is one issue. If it is a criminal matter where the U.S. 
Attorney is involved, then through the U.S. Attorney's Office, 
we can use subpoenas. That is what the IG Act provides.
    Mr. Lynch. It says in the statute that authorizes you, 
Title V, Subsection 6, that you have the right to unfettered 
access to all materials.
    Mr. Elkins. I do.
    Mr. Lynch. It also says that you can exercise and issue a 
subpoena to gain those materials.
    Mr. Elkins. Yes, two different things. Yes, we do have 
unfettered access.
    Mr. Lynch. It does not sound like you have unfettered 
access.
    Mr. Elkins. No, we do not.
    Mr. Lynch. You are telling me we have unfettered access and 
I said it does not sound like you have unfettered access and 
then you say, we do not have unfettered access. I am at wits 
end here because nothing is happening.
    Mr. Elkins. Let me see if I can answer your question more 
directly.
    Mr. Lynch. Please.
    Mr. Elkins. This is not really confusing. The statute 
provides that we do have unfettered access, that the agency 
needs to cooperate with us. That is separate from subpoena 
issues.
    Mr. Lynch. That is the definition of unfettered.
    Mr. Elkins. In order for that to work, the agency has to 
cooperate with us. We do not have that cooperation. If we do 
not get the cooperation, it does not work. I cannot issue a 
subpoena to compel that cooperation. That is the distinction.
    Mr. Lynch. OK, so we need to change the statute. Not only 
that, in my opinion, we need to put a provision in here that 
there is an obstruction of justice penalty against individuals 
who get in the way of justice, of prosecuting these cases.
    It is not merely an absence of reporting, there is an 
active effort here, in my opinion, to protect these employees. 
When you have an admission from an employee that they have 
broken the law and you promote them or if you have an admission 
within your department from an employee who works for you that 
they are downloading porn four or 5 hours a day, and you just 
kick the can down the road and let them retire without penalty, 
that is complicity. That is complicit in allowing that person 
to break the law and escape justice.
    I am just beside myself with what is going on here. It is 
absolutely pathetic. I know there are a lot of good employees 
over at the EPA. This is just a disgrace to them of painting 
them with this brush. You are not helping.
    I will yield back.
    Mr. Meadows. I thank the gentleman.
    The Chair recognizes the gentleman from South Carolina, Mr. 
Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Chairman, you have been on this Committee for a number 
of years, as have I. It is the same damned song, just a 
different verse. We cannot investigate because there is an 
ongoing Inspector General investigation, we cannot investigate 
because there may possibly be pending criminal charges.
    Then we hear last week, Mr. Chairman, that we cannot 
discipline employees for anything other than sexual harassment. 
Here we have a fact pattern that includes sexual harassment and 
nobody is being disciplined.
    Mr. Sullivan, what is the total number of women who made 
allegations against Mr. Jutro?
    Mr. Sullivan. Seventeen.
    Mr. Gowdy. Seventeen. Give me some of the specific 
allegations.
    Mr. Sullivan. Some of them are pretty graphic and I do not 
know if we want to discuss it.
    Mr. Gowdy. Oh, yes, I do because the two men beside you 
either knew about them or should have known about them and did 
not do a damned thing about it, so the more graphic, the 
better.
    Mr. Sullivan. On one occasion, which was in December 2013, 
Mr. Jutro was at a restaurant in the Wilson Plaza right next to 
EPA headquarters with one of the senior female employees.
    She described to Mr. Jutro that she had to leave to take 
the train home. He perked up and said, train, I have never had 
one of those. She knew exactly what he meant.
    Mr. Gowdy. I think most of us know what he meant.
    Mr. Sullivan. Yes, and she was very offended by that 
statement.
    Mr. Gowdy. Yes, well, she should have been. What else?
    Mr. Sullivan. At the incident at the White House in July, a 
female colleague was at the White House on assignment with Mr. 
Jutro. He asked her what she was doing and she I am tweeting 
back the event here so our colleagues back at EPA headquarters 
can understand what is going on and can follow in real time.
    He said, oh, twating, I really like twating, again 
referring to part of the female anatomy.
    Mr. Gowdy. Mr. Reeder, were you aware of an allegation of 
inappropriate, unwanted sexual discussion at an EPA happy hour 
on December 4, 2013 at a restaurant? Were you aware of that?
    Mr. Reeder. No, sir.
    Mr. Gowdy. Do you know why you were not aware of that, Mr. 
Reeder?
    Mr. Reeder. I do not know why.
    Mr. Gowdy. Because you did not bother to ask Mr. Jutro's 
supervisor when you were doing his background check. He knew 
about it but you did not bother to ask him.
    How about July 29, the same female was again the victim of 
inappropriate and unwanted sexual discussion by Mr. Jutro at 
the White House Innovation for Disaster Response and Recovery 
Day. Do you know about that?
    Mr. Reeder. I do not know.
    Mr. Gowdy. Do you know why you did not know about that, Mr. 
Reeder?
    Mr. Reeder. No, sir.
    Mr. Gowdy. Because you did not bother to ask the person who 
did know which was the immediate supervisor of Mr. Jutro while 
you were vetting him for another position.
    Did you know about an inappropriate and unwanted hugging 
and kissing that began with one of the victims in 2007?
    Mr. Reeder. No, sir.
    Mr. Gowdy. Do you know why you did not know about that, Mr. 
Reeder?
    Mr. Reeder. It was not told to me.
    Mr. Gowdy. Because you did not bother--no, no, no. You were 
not told? You did not ask. You did not interview his immediate 
supervisor. Do you recall what your rationale was for not 
interviewing that immediate supervisor?
    Mr. Reeder. Yes, sir.
    Mr. Gowdy. What was that?
    Mr. Reeder. At some point before Dr. Jutro was put into the 
position----
    Mr. Gowdy. I am looking for an answer. I am not looking for 
an encyclopedia. What reason did you give for not interviewing 
the immediate supervisor of the person that we are describing? 
Do you want me to refresh your recollection, Mr. Reeder--
because you do not talk to people at that level. That was your 
response.
    Mr. Reeder. That is the characterization of somebody else, 
sir. That is not my characterization.
    Mr. Gowdy. It is the characterization of the Inspector 
General, Mr. Reeder.
    Mr. Reeder. If you like, I can answer.
    Mr. Gowdy. No, I am going to get through, first, Mr. 
Reeder.
    Mr. Reeder. Yes, sir.
    Mr. Gowdy. Were you aware of an allegation of inappropriate 
and unwanted hugging and kissing that occurred at another White 
House meeting in approximately 2009-2010?
    Mr. Reeder. No, I am not, sir.
    Mr. Gowdy. Do you know why you were not aware of that, Mr. 
Reeder?
    Mr. Reeder. No, sir.
    Mr. Gowdy. Because you did not bother to ask the person 
that had knowledge which would have been the immediate 
supervisor of the person you were vetting for another office.
    Were you aware of inappropriate and unwanted hugging and 
kissing and sexual discussion that began with yet another 
victim in 2002?
    Mr. Reeder. No, sir.
    Mr. Gowdy. Do you know why you were not aware of that, Mr. 
Reeder?
    Mr. Reeder. Congressman----
    Mr. Gowdy. Because you did not bother to ask the person who 
knew. Did you volunteer the information when you were asked?
    Mr. Reeder. I am sorry, I am not sure what information you 
are referring to.
    Mr. Gowdy. Did you know any of these allegations, Mr. 
Reeder?
    Mr. Reeder. No, sir.
    Mr. Gowdy. Why did you not interview--let me ask the 
Inspector General. Do you agree with that, Mr. Inspector 
General, that Mr. Reeder was not aware of any allegations of 
wrongdoing at the time you interviewed him and failed to 
volunteer?
    Mr. Elkins. Let me defer to Mr. Sullivan who has the facts 
on the investigative piece.
    Mr. Sullivan. Mr. Gowdy, we determined that at a minimum, 
Mr. Reeder was aware of the offensive discussion that Mr. Jutro 
had with Ms. Feldt. He was also aware of the reporting of Mr. 
Jutro's sexual harassment, including unwanted hugging and 
kissing with a senior executive. Ms. Feldt reported that to Mr. 
Reeder, as well as other senior people including the former 
Deputy Administrator, Mr. Perciasepe, before Mr. Jutro was 
appointed as the Acting Associate Administrator.
    Mr. Gowdy. What did Mr. Reeder do with that information?
    Mr. Sullivan. I do not know what he did but we did not find 
out about it----
    Mr. Gowdy. But he was on notice before the promotion was 
made of some of these allegations?
    Mr. Sullivan. Yes.
    Mr. Gowdy. And would have been on notice of more had he 
bothered to ask the immediate supervisor?
    Mr. Sullivan. Had he asked the immediate supervisor--we had 
interviewed the immediate supervisor--that supervisor told us, 
I would have absolutely shared that with Mr. Reeder but he was 
never contacted.
    Mr. Gowdy. I yield back, Mr. Chairman.
    Mr. Meadows. I thank the gentleman from South Carolina.
    Mr. Reeder, I am concerned that, as a chief of staff, you 
are charged with a particular duty and a particular task and 
yet, under questioning from Mr. Gowdy, it sounds like you did 
not even conduct a thorough investigation before making a 
recommendation on this individual.
    Mr. Reeder. Mr. Chairman, I disagree with that.
    Mr. Meadows. How could you disagree with all the questions 
that Mr. Gowdy just posed to you and you had no knowledge but 
yet, Mr. Sullivan was able to get that by picking up the phone 
and having a discussion? How could you disagree with that?
    In hindsight, you would acknowledge that you were wrong, 
would you not, in hindsight?
    Mr. Reeder. In hindsight, I would have asked a different 
question, yes, sir.
    Mr. Meadows. All right.
    The Chair recognizes the gentlewoman from New York, Ms. 
Maloney for 5 minutes.
    Ms. Maloney. I am just astounded and I am getting a little 
clarification. It appears that you sexually harassed someone 
and you might just get a promotion. You are not disciplined, 
you are not put on leave to protect other employees from 
inappropriate behavior. It appears you get a promotion.
    I want to followup with the questioning of my colleague 
from the great State of South Carolina.
    Mr. Reeder, the IG report indicates that you were one of 
four senior officials who was notified of the concerns of two 
female employees on about February 20, is that correct? Were 
you notified by these female employees of their concern?
    Mr. Reeder. I had a conversation with Lisa Feldt who told 
me of something she heard from a third party, yes.
    Ms. Maloney. Did you followup and talk to the third party?
    Mr. Reeder. No, ma'am. I had the understanding from Ms. 
Feldt that the third party was not interested in speaking about 
the matter further.
    Ms. Maloney. Did you conduct any further checks of Mr. 
Jutro after you were informed of these concerns? Sexual 
harassment is a crime.
    Mr. Reeder. Congresswoman, in this instance, Ms. Feldt told 
me that there was an issue, that there was some behavior which 
was not described to me. I think it is important for the 
Committee to know what I did know and did not know.
    I did not know the place, the date, the time, the 
description of the activity or behavior. I did not have a 
complainant and I did not have a witness. I had a concern about 
something that he had done inappropriately at some point in the 
past. It certainly was not enough for me to open an 
investigation.
    I was, frankly, conflicted about what I should do with that 
kind of information. It was a very difficult set of facts for 
me to deal with, frankly--to act on.
    Ms. Maloney. Is not sexual harassment, inappropriate 
touching and inappropriate language toward your coworkers 
defined as sexual harassment? You may not think it is 
inappropriate, but certainly my colleague on the other side of 
the aisle did.
    I want to followup on when you are going to promote 
someone, you talk to the people who work with them. An 
allegation is an allegation. If they are serious, I try to 
followup on them. I got one the other day and I am making some 
phone calls on it.
    Why didn't you check with the supervisor? The supervisor 
would know whether or not this person should be promoted? Why 
didn't you check with Mr. Jutro's immediate supervisor? Is it 
true that you did not check with the Office of Research and 
Development or the supervisor in his case or whatever? Why 
didn't you check with him?
    Mr. Reeder. Congresswoman, when I heard this incident, 
which as I described was very vague information about some 
inappropriate behavior, I did make additional calls to people 
that I believed would be in a position to know more about Dr. 
Jutro.
    Ms. Maloney. Would not his immediate supervisor be in a 
better position than whomever you decided to randomly call? Why 
didn't you call him? I am just curious. What were you thinking?
    Mr. Reeder. I called the senior people in the Office of 
Research and Development, I did. I did not call Mr. Sales. In 
the normal course of discussing the temporary detail of this 
matter, I would talk with somebody who was in charge of the SES 
folks in the other office--in this case, Research and 
Development.
    Ms. Maloney. Mr. Sales was his immediate supervisor, 
correct?
    Mr. Reeder. Correct. I have to tell you, I really 
believed--I understand now maybe this did not happen, I do not 
know--that if there were serious concerns about Dr. Jutro's 
behavior, those were people that would know. This was the 
person in charge of HR.
    Ms. Maloney. I think supervisors, people who are close--
hindsight is 20/20 but knowing what you know now, do you 
believe it would have been good judgment and appropriate to 
check with his supervisor?
    Mr. Reeder. Knowing what I know now, I think I would have 
called the same people and I would have been explicit in 
whether they had checked with the supervisor of the individual. 
I would have been explicit.
    Ms. Maloney. You would not have called the supervisor?
    Mr. Reeder. I may or may not. If I had the belief that 
something needed further investigation, I certainly would, but 
in the course of the normal vetting, I would be explicit that 
they check with the supervisor.
    Ms. Maloney. So you regret your actions now?
    Mr. Reeder. I do not know what the supervisor would have 
said, Congresswoman. I certainly wish we had had that 
information at the start.
    Mr. Meadows. I thank the gentlewoman.
    Mr. Reeder, I find it just mind boggling that you cannot 
even say that in retrospect, you made a mistake. It is very 
ironic where an agency is charged with making sure that we have 
a clean environment but yet has a work environment that is 
polluted. It is just beyond comprehension.
    Ms. Maloney makes a good point. Even in retrospect, you 
cannot even say that you made a mistake?
    Mr. Reeder. Mr. Chairman, I honestly believe I did the best 
I could with the information I had. I do wish I had spoken to 
the--yes, I do.
    Mr. Meadows. Mr. Reeder, I would suggest that you are 
probably the only person that believed you did as much as you 
should have done.
    With that, I will recognize the gentleman from Alabama, Mr. 
Palmer.
    Mr. Palmer. Thank you, Mr. Chairman, and I thank the 
witnesses.
    I have been sitting here listening to the testimony. 
Frankly, I am absolutely astonished that either of you still 
have a job. It is absolutely unbelievable. Not only have you 
allowed a culture of sexual abuse to exist in your agency, you 
sit here and deny that you allowed it.
    There was a report from Senator Jeff Flake last year that 
pointed out there were eight people on administrative leave at 
the EPA apparently because they were involved in cases of 
alleged serious misconduct and they were paid $1,096,000. One 
person was on leave for 3 years.
    Were any of those people involved in sexual misconduct, yes 
or no? Mr. Meiburg, Mr. Reeder, either one of you, yes or no?
    Mr. Meiburg. Congressman, let me speak to----
    Mr. Palmer. It is a yes or no.
    Mr. Meiburg. The question that you asked was about a 
cultural of sexual harassment which I do not agree with.
    Mr. Palmer. That was not the question, sir. That was an 
affirmative statement. The EPA tries to regulate everything 
from greenhouse gases to ditch water to cattle flatulence but 
if someone makes the slightest mistake in their business or 
farm or their duties as a municipal officer, they are 
immediately descended upon by the EPA.
    They are subject to heavy handed action. There have even 
been cases where the EPA has showed up with weapons drawn. Last 
year, you backed off trying to garnish wages, you have taken 
personal property and people faced massive fines that have cost 
them their businesses, their farms, their careers and their 
savings.
    Yet, you have employees who have been sexually abusive of 
women and others engaging in activities that are sexually 
abusive of children and no one, no one was fired. They were put 
on administrative leave, paid administrative leave.
    The EPA, in some cases, has cost private citizens millions 
of dollars, virtually destroying their reputations, their lives 
and at the same time, you have protected sexual perverts, even 
rewarded them with promotions and pay increases.
    Mr. Meiburg, Mr. Reeder, the EPA is not only mismanaged, it 
is misguided and in these cases, apparently morally corrupt. 
How can you sit there and defend these actions?
    Mr. Meiburg. Congressman, with respect, there are several 
elements to your question, some of which go far beyond the 
scope of this hearing.
    Mr. Palmer. I have not asked a question. I made an 
observation. My question is, how can you defend these actions? 
You have not given a definitive defense of any of this. The 
gentleman from South Carolina, the gentlelady from New York--
you have yet to give a definitive defense of your actions.
    Mr. Meiburg. Congressman, again, let me sort through a 
couple of different aspects of this.
    One is we are very clear at EPA that sexual harassment and 
viewing porn is not a part of EPA.
    Mr. Palmer. Why would you go after honest people who are 
trying to run a business, trying to raise a family or run a 
farm who make a mistake and come down on them, in some cases 
with fines of $32,500 per day, when you have activities like 
this going on within your agency and you cannot act on that as 
definitively and as decisively as you do people who are trying 
to run a business or run a farm?
    Mr. Meiburg. Congressman, with respect, that is not an 
either/or question. We, in fact, do many actions and anyone who 
is subject to an enforcement action by EPA is entitled to due 
process under the law.
    Mr. Palmer. I would not have any problem at all with due 
process for people who were actually charged with something. 
You impeded the investigation of the Inspector General and you 
withheld documents. In my opinion, you obstructed justice. I do 
not see how you can defend it.
    Mr. Chairman, I yield the balance of my time.
    Mr. Meadows. I thank the gentleman from Alabama.
    The Chair recognizes the gentlewoman from Michigan, Ms. 
Lawrence.
    Ms. Lawrence. Good morning.
    I have some questions for the witnesses who are here today.
    You have been members of the Federal Government for a 
while, so my question to Mr. Sullivan, have you ever received 
EEO training as a manager?
    Mr. Sullivan. Yes, ma'am.
    Ms. Lawrence. How often do you receive it?
    Mr. Sullivan. Yearly.
    Ms. Lawrence. I want to ask Mr. Meiburg, have you received 
EEO training as a manager and how often do you receive it?
    Mr. Meiburg. Yes, indeed, I have, annually as well.
    Ms. Lawrence. Mr. Reeder, the same question to you. Can you 
tell me how many years you have had in the Federal Government 
and have you received the training?
    Mr. Reeder. Yes, I have 30 years combined, military and 
Federal service and I have received the training.
    Ms. Lawrence. In this training, is it stressed upon you 
that your obligation is to address any complaint of alleged 
sexual harassment or a hostile work environment?
    Mr. Reeder. I think I can answer that. The policy calls--
actually, it advises employees to tell their supervisor and the 
supervisor is obligated to take action which could be informal 
or formal, depending on the seriousness of the complaint.
    Ms. Lawrence. In your training that you receive, do you 
feel that the allegations and the proper action that should 
have been taken was processed the way you have been trained?
    Mr. Reeder. I honestly do not know of the cases prior to 
the time that Dr. Jutro was in my office.
    Ms. Lawrence. No, I am talking about where you were 
directly involved?
    Mr. Reeder. Yes.
    Ms. Lawrence. You felt you met the training and the 
obligation that you had as a manager?
    Mr. Reeder. Yes, ma'am.
    Ms. Lawrence. I Stated before that I was an EEO 
investigator, so I clearly feel--not feel, I clearly see a 
disconnect from the training, the responsibility you have as a 
manager and what happened to an employee.
    When you have 17 women--17--who are giving you the reports 
that their work environment is one that has been compromised 
because of sexual harassment, as a manager--as a manager--part 
of your responsibility is to manage your supervisors. You 
cannot divorce yourself from what happened.
    Mr. Reeder. Absolutely.
    Ms. Lawrence. It is challenging for me to sit here and know 
that women who come to work to earn a living, to take care of 
their families, women or men in our Federal Government who are 
the gatekeepers, the EEOC, the Federal agencies, to take care 
of the work environment, you failed these 17 women over the 
course of the years and you cannot divorce yourself from it 
because it was a supervisor.
    I do have a question for you. How would you change the 
environment that we have seen here? You have been trained. You 
have been a manager for 30-plus years. This goes to Mr. 
Sullivan as well.
    Mr. Reeder. I would be pleased to answer that.
    When we have allegations that are filed with the Office of 
Civil Rights, those are tracked and we have pretty good data if 
it is an EEO-related type of harassment. In fact, last year, we 
had one filed case of sexual harassment with our Office of 
Civil Rights. In the preceding year, we had two.
    That is very low in number but nonetheless, those three 
cases were filed with the Office of Civil Rights. There were 
other cases that were----
    Ms. Lawrence. You do know if there is an environment where 
you feel you are not going to be heard and there are 
consequences, filing of the formal complaints does not negate 
your responsibility for a work environment, you know that?
    Mr. Reeder. I am getting there. I think what might be 
helpful for us is to have a better system of knowing what other 
cases that are not going to the Office of Civil Rights, how 
they are being handled and how many there are.
    Right now, the way it is handled, they are not all 
necessarily centrally identified. Individual managers may have 
dealt with a case informally and may have counseled the person. 
Once the harassing behavior stops, that is usually the remedy 
the victim wants. They want the behavior to stop. Once it 
stops, that sort of is the end of that record. We do not have a 
really good sense of how often it is happening across the 
agency.
    Ms. Lawrence. Mr. Sullivan, what are we doing to ensure 
that people come to work and they are not in this environment 
where it seems to be kind of well, if they stop, it is OK, we 
have achieved the goal, they did not file a formal complaint? 
What is your response to that?
    Mr. Meadows. Mr. Sullivan, the gentlewoman's time has 
expired but you can answer the question.
    Ms. Lawrence. Thank you.
    Mr. Sullivan. Thank you, Mr. Chairman.
    Ms. Lawrence, we, in the Inspector General's Office, do not 
normally investigate EEO violations. There is a certain process 
within most agencies and the IGs do not normally----
    Ms. Lawrence. But you have the responsibility.
    Mr. Sullivan. Yes, ma'am. I will answer that.
    In this case, we did a very thorough and professional 
investigation. Some of the victims, quite frankly, told us they 
were afraid to report----
    Ms. Lawrence. Absolutely, it happens every day because you 
do not have managers who take it seriously and respond.
    Mr. Sullivan. That is correct. There were some of the 
victims that were afraid to report it and when they were 
interviewed by my special agents, they opened up and told us 
exactly what happened. There were other victims that felt that 
Mr. Jutro was not held accountable at all for his actions.
    Mr. Meadows. You can followup in writing.
    The Chair will recognize the gentleman from Tennessee, Mr. 
Duncan.
    Mr. Duncan. Mr. Chairman, thank you very much.
    I will say to Chairman Chaffetz, I appreciate his calling 
this hearing and staying on top of these matters.
    I am in my 27th year in Congress. In that time, I have 
served on four different Committees. I have been in so many 
hearings about horrendous waste by Federal departments and 
stupid decisions by Federal departments and agencies. I have 
heard about these on the floor of the House from every 
Committee.
    I have read about these dumb decisions and horrendous waste 
in all kinds of articles but this Committee is the main 
investigatory Committee of the Congress. In the time I have 
served on it, we have investigated I guess almost every 
department and agency at some point or another.
    We realize when we sit here, that we just see the tip of 
the iceberg because we are not in these departments or agencies 
full time, so we are not seeing all the misconduct or all the 
waste that is going on. We are seeing a tiny, little portion of 
it.
    I have to tell you, Mr. Meiburg and Mr. Reeder, what I have 
heard over these last few months about the EPA is absolutely 
the worse I have heard of any department or agency in the 
entire Federal Government.
    A few months ago, we were here and heard about Mr. Beale or 
Dr. Beale who pretended to be a secret agent for a number of 
years and drew I think almost $2 million in salary at the time 
he was doing no work, taking vacations around the world, 
spending most of his time at home doing nothing.
    Now we hear about EPA employees who are spending hours of 
their work day looking at pornography. Then we hear about 
another high ranking EPA employee who has 17 women charging him 
with sexual harassment. It just goes on and on.
    It seems to me the people who are running the EPA--both of 
you gentlemen are very high level EPA employees--people who are 
running the EPA should be ashamed. You should be embarrassed.
    It appears that the EPA has too many employees who are not 
doing anything. The ones who are doing work seem to be running 
amuck going almost power mad. It has just gotten ridiculous.
    I am concerned about another thing. District Judge Lamberth 
made a ruling not long ago. He said in the case of Landmark 
Legal Foundation v. EPA, the EPA did not comply with FOIA 
requests, they were extremely negligent in processing the 
requests and apparently were delaying things to help the 
Presidential election in 2012.
    We have another instance of the NFIB, the National 
Federation of Independent Businesses, sending a FOIA request to 
the EPA in May and not receiving an answer until December 30.
    The abuse just goes on and on and on. These people are 
allowed to keep these high paying jobs--very high paying jobs, 
way above what average Americans are making--for months or even 
years after they have been discovered doing some of these 
terrible, even sometimes criminal activities.
    It just is a shameful, embarrassing and pitiful record. 
Everybody connected with EPA should be ashamed and embarrassed 
about this because, as I say, we are just getting the tip of 
the iceberg.
    Mr. Elkins, was this man--Mr. Jutro or Dr. Jutro--allowed 
to move his retirement date up so he would not be accessible to 
your people? Is that correct?
    Mr. Elkins. The facts suggest, sir, he did not want to talk 
to us and he used the vehicle of retirement to defect that 
outcome.
    Mr. Duncan. Do you think EPA has been moving fast enough on 
these administrative procedures? It looks to me like they have 
been dragging their feet. As I think Mr. Lynch said a few 
moments ago, they are trying to protect these employees I guess 
because some of them were friends.
    Mr. Elkins. I am sorry, I cannot speak to the motives of 
the EPA management.
    Mr. Duncan. I understand.
    Mr. Elkins. On the other hand, we have done everything we 
can do on our end to make sure that we follow the facts and 
bring the facts to the EPA as soon as possible so they can act.
    Mr. Duncan. I want to say this. We certainly appreciate the 
work of your office because a lot of these terrible activities 
would not be here in front of us if it was not for your staff 
and your office. I just want to say I appreciate that.
    I hope we greatly decrease the funding of the EPA and 
greatly decrease the number of employees so that the people 
over there will not have all that time on their hands. Maybe 
they will do some good things for the country instead of doing 
so many ridiculous, shameful, wasteful things.
    Thank you very much, Mr. Chairman.
    Mr. Meadows. I thank the gentleman from Tennessee.
    The Chair recognizes the Chairman of the full Committee, 
the Honorable Mr. Chaffetz from Utah.
    Chairman Chaffetz. Thank you. I do appreciate it.
    Mr. Meiburg, viewing pornography at work, is that allowable 
or not allowable?
    Mr. Meiburg. That is not allowable by very explicit EPA 
policy.
    Chairman Chaffetz. What is the penalty for viewing 
pornography at work?
    Mr. Meiburg. The penalty will depend on exactly what 
happens.
    Chairman Chaffetz. What is the range?
    Mr. Meiburg. The range is from a warning to dismissal.
    Chairman Chaffetz. You say in your testimony at page two, 
``All the EPA employees who work so hard especially deserve 
that we deal with the misconduct or poor performance swiftly 
and with integrity and professionalism.'' Do you think you have 
lived up to that standard?
    Mr. Meiburg. I think that we are moving swiftly when we get 
information. I think there is room for improvement--we 
discussed that already this morning--in the communication 
between ourselves, the U.S. Attorney's Office and the Inspector 
General.
    Chairman Chaffetz. I appreciate that but the cases we 
talked to you about, which were some of the most egregious we 
have ever seen in Federal Government, there is no evidence that 
you have moved swiftly. I do not see any evidence of that.
    Let us go back to Mr. Manning for a second. Why didn't you 
swiftly and immediately--you put him on paid administrative 
leave?
    Mr. Meiburg. No, sir, I believe Mr. Manning is the case in 
Region V where he had child pornography and he was immediately 
taken on unpaid leave because there was reasonable cause to 
believe that he had committed a crime for which a sentence of 
imprisonment could be imposed.
    Chairman Chaffetz. My understanding is he was put on paid 
leave and then transitioned to unpaid leave. Mr. Sullivan?
    Mr. Sullivan. Yes, Mr. Chairman. He was initially put on 
paid leave for about 3 weeks. Then the agency transitioned that 
to unpaid status.
    Chairman Chaffetz. Let me ask you, Mr. Elkins, last night 
my understanding is that the EPA Administrator sent out an 
email rescinding the MOU with the FBI. Explain that to us. What 
is it that you are not getting that you believe you should be 
getting?
    Mr. Elkins. Thank you for that question. Yes, I did receive 
just around 5:30 p.m. last night an email from the 
Administrator that Stated that she had decided to rescind the 
MOU.
    What that really does is murky up the waters. We have never 
said that the OIG did not want an understanding or an agreement 
with the agency and the FBI so that we all understand what our 
roles are.
    You have to understand, sir, that we are in an environment 
where we have agents who are armed who may find themselves in 
situations if they do not know what they are doing, you can 
have a blue on blue sort of situation that is a very dangerous 
situation.
    What the Administrator's memo basically has done is that 
now we really do not have any guidelines. What we have is OHS 
now will make the determination and work with the FBI on any 
intelligence matters that come in.
    It seems that whether or not they are criminal or 
misconduct, we do not know and the OIG is then dependent on the 
OHS informing us as to what is going on.
    I have been having this discussion for 5 years. That has 
been the practice. It has never worked, even with the MOU. Now, 
since the MOU has gone away, what gives me any assurance that 
things are going to be any different? We are back to square one 
again in a murky situation.
    That is the problem we have. The OHS has investigators. 
That office is growing. They even have more investigators now 
with guns and badges. The situation is actually getting worse 
rather than better.
    Chairman Chaffetz. How should it be? In your opinion--you 
have been around the block for a long time--how should it be?
    Mr. Elkins. What should happen is a clear acknowledgement 
of the OIG's primary role in serving as the investigative arm 
of the agency where employee misconduct is involved. 
Irrespective of whether it is an intelligence issue or whatever 
the matter is, the OIG should be the point of contact.
    That message needs to come clearly from the Administrator 
so that everybody understands what their roles are. That has 
not happened.
    Chairman Chaffetz. Mr. Meiburg, what is unreasonable about 
that?
    Mr. Meiburg. Mr. Chairman, a couple of things. One is I 
have to admit I am a little puzzled about the rescinding of the 
MOU because it was my understanding--I will have to work with 
the OIG on this as we move forward--that the MOU itself was an 
objectionable thing and that the rescinding of the MOU was 
something that was desired. I think the Administrator's intent 
was to take that issue off the table.
    The Inspector General's Office has its jobs and the OHS has 
its jobs. We fully agree with the Inspector General that the 
Inspector General needs unfettered access in the conduct of its 
lawful duties. The Administrator has Stated repeatedly that is 
what she expects of every EPA employee.
    Chairman Chaffetz. Do you have unfettered access?
    Mr. Elkins. No, sir, we do not have unfettered access.
    Chairman Chaffetz. Mr. Meiburg, why doesn't he have 
unfettered access? You just said he should.
    Mr. Meiburg. I admit to being puzzled because from where I 
sit at least, he does.
    Chairman Chaffetz. Mr. Elkins, what do you not have 
unfettered access to?
    Mr. Elkins. As I previously Stated, sir, in terms of 
investigations, we conduct the investigations. We have the 
ultimate authority to conduct those.
    Chairman Chaffetz. Mr. Meiburg, do you disagree with that?
    Mr. Meiburg. Mr. Elkins, I believe, is referring to 
investigations of personnel matters which we believe he has the 
ability and right to do and that we encourage employees to 
cooperate when he conducts those investigations.
    Chairman Chaffetz. When you initiate those, do you inform 
the Inspector General?
    Mr. Meiburg. We generally ask the Inspector General.
    Chairman Chaffetz. Generally? How about all the time?
    Mr. Meiburg. Pretty much all the time.
    Chairman Chaffetz. Pretty much all the time? Why not all 
the time? What are the exceptions?
    Mr. Meiburg. When you have a matter that is serious--I will 
use the Jutro case.
    Chairman Chaffetz. No, no, we just said all or nothing, 
right? Is it all or nothing?
    Mr. Meiburg. When we have a matter that involves conduct 
that requires investigation, we ask the Inspector General to 
come in and do an investigation. I will also say from the 
standpoint of my career, there have been many, very productive 
investigations the Inspector General has done that have been 
helpful to conduct and discipline in the agency.
    Chairman Chaffetz. Mr. Elkins?
    Mr. Elkins. The question that needs to be asked is when do 
they provide that information to us? We are finding that the 
agency may have the information and sit on it for a while. 
Eventually, yes, it may get to us.
    Also, Mr. Meiburg, I want to be clear that we are parsing 
things out here. Mr. Meiburg, with all due respect, indicated 
on personnel matters, they do refer matters to the OIG. It goes 
much further than that. Matters, not only personnel, criminal 
matters, any matter that has a nexus to employee misconduct 
should initially, as soon as it comes in the house, they should 
pick up the phone and give us a call. That is not happening.
    Chairman Chaffetz. Mr. Meiburg?
    Mr. Meiburg. Again, I believe the agency has been very 
clear that the Inspector General, in carrying out their lawful 
duties, has unfettered access to the work of the agency.
    Chairman Chaffetz. If they have unfettered access but they 
do not know what they do not know. For the process to work 
properly requires you, the EPA, to inform the Inspector General 
that there may be an issue. That means all of the issues, not 
just some of them, not pretty much, not any other disqualifier.
    I think what we are looking for is the Administrator to 
clearly articulate that throughout in some sort of letter, memo 
or letter to Congress without getting somebody else involved. 
That is where they are bumping into other people. That is what 
I think is causing all the rub.
    Mr. Meiburg. Thank you, Mr. Chairman. I appreciate that. I 
will be glad to supply for the record the Statement the 
Administrator issued within the last 6 months over the fact 
that employees have the duty to cooperate with the Inspector 
General.
    Chairman Chaffetz. Let us keep following up on that.
    I need to ask a couple of others and the indulgence of the 
rest of the Committee. I appreciate it.
    Mr. Reeder, I have a question about the personnel records. 
Part of the challenge that we have in the specific case that 
Mr. Gowdy and others have brought up is that you did not go 
back and interview the immediate supervisor.
    For someone under consideration for a promotion, it seems 
like the very first thing you would do is go talk to the 
immediate supervisor who is telling the Inspector General. That 
did not happen.
    The question I have is, isn't there some sort of electronic 
record that you, as a manager, looking to promote someone, 
could go look and see, doesn't it show up in some sort of 
personnel record to show that this person has had, at this 
point, more than a dozen women complain of sexual harassment to 
one degree or another?
    Mr. Reeder. Mr. Chairman, thank you, Mr. Chairman, over 
there as well, I do not mean to offer this in defense of myself 
or any other actions but just for clarification for the 
Committee, this was a temporary assignment for Dr. Jutro. It 
was not a promotion. It was not what we would consider a 
promotion.
    Chairman Chaffetz. Did he make more money?
    Mr. Reeder. No, sir.
    Chairman Chaffetz. Did his title change?
    Mr. Reeder. His title changed but his position of record 
remained in the Office of Research and Development. He was on a 
detail which was a temporary assignment.
    Again, I do not mean that in defense in any way but it is 
important to get the facts straight. I know you are interested 
in that. It did not involve a promotion in the sense that the 
government considers promotions, so there was no formal 
vetting.
    Chairman Chaffetz. We are talking about 17 women who were 
harassed and there does not seem to be a flashing red light 
that goes off in someone's office saying we have a problem down 
here. Why does it take 17 women? Why didn't it happen after the 
first incidence?
    Mr. Reeder. Sir, in answer to your question, I think I kind 
of got to that earlier with Congresswoman Lawrence's question 
that I think it might be beneficial to have a better record of 
what actions are being taken by management that are not 
centrally investigated or adjudicated.
    Chairman Chaffetz. What are you going to do about it?
    Mr. Reeder. I have to say the vast majority of these cases 
often do not rise to the level of a serious charge of 
harassment but they are matters we have to take seriously. I 
have invested as much as any senior executive at EPA----
    Chairman Chaffetz. What has to happen to a woman to be 
serious?
    Mr. Reeder. If it is unwanted and it is persistent.
    Chairman Chaffetz. Persistent? If it only happens once, it 
is OK?
    Mr. Reeder. It does not rise to the legal definition.
    Chairman Chaffetz. If it happens once, if it is not 
persistent in your mind, then it is not harassment?
    Mr. Reeder. Mr. Chairman, I am not defending harassment.
    Chairman Chaffetz. You said it had to be persistent. You 
qualified it with persistent. I am challenging that. Why does 
it have to be persistent?
    Mr. Reeder. That is what I have learned in the training 
from EEOC, it has to be in a manner that creates this hostile 
work environment for an employee.
    Chairman Chaffetz. If it happens once----
    Mr. Reeder. That is very serious.
    Chairman Chaffetz. If it happens once, is it unacceptable?
    Mr. Reeder. It is unacceptable.
    Chairman Chaffetz. In your mind, does it rise to the level? 
You said it has to be persistent.
    Mr. Reeder. It rises to a level that a manager needs to do 
something about it, yes, it does. Does it meet the test for 
dismissal or formal disciplinary action, that is all very case 
specific, but I have to say it is unacceptable at any level. 
Our managers are obligated to take action, sir.
    Chairman Chaffetz. I appreciate the indulgence here. Your 
written policy says sexual harassment, written reprimand to 
removal. It is obviously not working and it needs 
clarification.
    With indulgence, I have one more question.
    I was asking if there was a penalty for watching porn and 
you said, it depends on what happened. How many different ways 
are there to watch porn? Where is the threshold where it 
depends?
    Mr. Meiburg. Mr. Chairman, any amount of watching porn is 
unacceptable. When you are considering you have identified 
there was porn, you look at all the factors. You look at the 
so-called Douglas factors in considering what penalty would be 
imposed.
    They include the magnitude and extent of the offense, the 
employee's prior discipline and conduct record and the other 
ten factors that go along with the Douglas factors. That is 
what the table is intended to represent.
    Clearly, the cases we are looking at here were very severe 
cases and those exacerbating circumstances have been taken into 
account in the action the agency has proposed to take.
    Chairman Chaffetz. They still were not immediately fired. 
They still were on unpaid leave.
    Here are two things I would like you to do. One is specific 
to pornography. I want to see the written policy and I want to 
see whatever notification you have put out over the last 
several years. Maybe there are twenty, maybe there are none. I 
do not know. Provide those to us and our Committee. Second is 
the definition of the sexual harassment and why the wide range. 
Is it a definition of persistent, not persistent? We are trying 
to help solve this.
    That is the spirit in which we do this. We would appreciate 
your help. We thank you gentlemen.
    I yield back.
    Mr. Meadows. I thank the Chairman.
    Mr. Meiburg, let me followup on one question of his because 
you talked about viewing pornography. As you know, we have a 
bill that would prohibit that on Federal assets and computers. 
My question to you is very simple. How many hours of 
pornography watching is an offense?
    Mr. Meiburg. Any pornography watching on government time, 
on government equipment.
    Mr. Meadows. How many of your employees would you say have 
this problem?
    Mr. Meiburg. Boy, I sure hope not many.
    Mr. Meadows. What do you mean hope? Do you mean you have 
not checked?
    Mr. Meiburg. No, I have not personally supervised----
    Mr. Meadows. Has anybody?
    Mr. Meiburg. Yes, their supervisors.
    Mr. Meadows. Can you give us the names of the people who 
have actually checked all the EPA employees for this? Is that 
your testimony? I cannot believe that would be accurate.
    Mr. Meiburg. No, no, that is not my testimony.
    Mr. Meadows. What is your testimony?
    Mr. Meiburg. My testimony is that I do not believe that EPA 
has a widespread culture of employees viewing pornography.
    Mr. Meadows. How would you know?
    Mr. Meiburg. I would know because those issues would have 
been identified and reported to a greater degree than they have 
been.
    Mr. Meadows. Seventeen counts of sexual harassment were 
reported to all kinds of people and we did not deal with it. Do 
you have 17 different violations of this particular thing 
before it gets raised to a point where somebody retires?
    Mr. Meiburg. I want to make sure we are clear about 
separating the pornography and the Peter Jutro case which was 
one individual.
    Mr. Meadows. I see them as connected but you go ahead. You 
can separate them. If you want to justify pornography watching 
at the EPA, you go right ahead.
    Mr. Meiburg. Let my testimony be exceptionally clear, I do 
not want to justify any pornography watching at the EPA.
    Mr. Meadows. My question still stands. How much is too 
much?
    Mr. Meiburg. Any is too much.
    Mr. Meadows. How do you know what is being done at your 
agency, Mr. Meiburg? Have you instructed anybody to check into 
it?
    Mr. Meiburg. We have asked all of our supervisors to be 
aware that this is a top----
    Mr. Meadows. Have you personally instructed--can you send 
us an email or a memo that was sent out that says we have zero 
tolerance--what you are saying today? Have you sent that out. 
The second part of that question is, have you put blocks on 
those government computers?
    Mr. Meiburg. Congressman, we have identified ways to put 
blocks against known porn sites. We have two issues that, in 
all candor, I have to describe.
    One is that the Internet moves faster than we do. It moves 
faster in identifying sites. I cannot testify----
    Mr. Meadows. You are saying it is a technology issue? Mr. 
Meiburg, come on. You are saying there is not the technology to 
block that on Federal computers?
    Mr. Meiburg. There is the technology to block sites that we 
know about. Sites come up faster than we can keep up with. That 
is life on the Internet.
    Mr. Meadows. You have blocks on everybody's computer that 
as of today, we could check everyone's computer and there would 
be a block on there for current technology, is that your 
testimony?
    Mr. Meiburg. My testimony is, to the best of my knowledge, 
we have blocks on accessing known porn sites. I want to 
elaborate.
    Mr. Meadows. It is amazing to me that they can watch it for 
several hours and continue to get a bonus. How does the guy get 
a bonus?
    Mr. Meiburg. I wish I could answer that question. I do not 
know.
    Mr. Meadows. Are you in charge of that?
    Mr. Meiburg. I have not been in charge of that.
    Mr. Meadows. Is Mr. Reeder in charge of that? How do you 
justify a guy watching porn 6 hours a day and he is still an 
outstanding employee and gets a bonus? Explain that to the 
American people.
    Mr. Meiburg. There is no explanation for that.
    Mr. Meadows. Why does it happen?
    Mr. Meiburg. Because there was a failure in the system.
    Mr. Meadows. How many failures did you have, Mr. Meiburg?
    Mr. Meiburg. If I knew how many failures I had, then I 
would be in a better position to give an answer.
    Mr. Meadows. You prepared for this particular hearing. I 
assume you coming to this hearing was not a surprise?
    Mr. Meiburg. No, it was not.
    Mr. Meadows. When you did your research, how many problems 
did you have?
    Mr. Meiburg. I have not got a list of how many problems nor 
can I admit the problems I do not know.
    Mr. Meadows. Therein is the problem. If the problems are 
there that you do not know and you are not looking, who has the 
responsibility for looking in your agency, Mr. Meiburg, you?
    Mr. Meiburg. The first line supervisors of employees are 
the ones who are responsible for supervising employee conduct. 
That, in fact, is the point of why we need to make sure our 
supervisors are well equipped----
    Mr. Meadows. You are saying this is all a first line 
supervisor problem?
    Mr. Meiburg. No, sir, I am not. I think first line 
supervisors need support from the senior leadership of the 
agency so that when they find examples of misconduct----
    Mr. Meadows. I could not agree more and therein is the 
problem, Mr. Meiburg. I do not think it is first line 
supervisors that see the problem. I think it is a cultural 
problem that goes up to the level of Mr. Reeder here.
    When you have agencies, senior levels that are willing to 
turn a blind eye to the kind of horrific stuff that we have 
heard today, it is very troubling, wouldn't you agree, Mr. 
Meiburg?
    Mr. Meiburg. I completely agree that we need to create a 
culture in EPA that makes it clear that watching pornography on 
the job is unacceptable and that we need to support actions to 
make sure people who do that are properly sanctioned.
    Mr. Meadows. Let me ask you this. We get whistleblowers. I 
have gotten people on <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="feaa9b92939f8c95be939f9792d096918b8d9bd0999188">[email&#160;protected]</a> that give me all 
kinds of insight. I am finding more information about your 
agency than you are, Mr. Meiburg. Wouldn't you say that is a 
problem?
    Mr. Meiburg. That sounds like a serious problem.
    Mr. Meadows. I am and what happens is there is a culture 
where they do not feel comfortable talking to you. They do not 
feel comfortable talking to the Inspector General; why would 
they not feel comfortable talking to you or Mr. Reeder? What 
possible reason would there be for that?
    Mr. Meiburg. That, I do not know.
    Mr. Meadows. I can give you an answer. If you cannot come 
up with one, I can probably give you an answer.
    Mr. Meiburg. Let me State what my own view is. I do think 
we need to create a culture in EPA and support it at the 
highest levels--the Administrator shares this view--that people 
ought to feel comfortable in bringing things forward if they 
are concerned.
    Mr. Meadows. Here is the commitment that I think is a 
bipartisan commitment here, Mr. Meiburg. This will stop. Do you 
know why, because it actually creates a very bad picture for 
the hundreds of thousands of good workers.
    Every time you give a bonus to someone who has violated it 
and you go oops, I made a mistake, there are three or four 
other people saying why did that person get a bonus when I am 
working very hard and I am doing the very best job I can, yet 
they get rewarded. Don't you think there is a problem there, 
Mr. Meiburg?
    Mr. Meiburg. Congressman, I completely agree with you. The 
biggest obligation, even apart from the individual actions or 
other kinds of behavior, is the impact on other employees 
because you are quite right, employees at EPA do not deserve to 
be tainted by the actions of a few bad individuals.
    Mr. Meadows. How many people have you fired because of 
that, you personally?
    Mr. Meiburg. When you say that, could you clarify?
    Mr. Meadows. Looking at pornography or sexual harassment, 
how many people have you personally fired, Mr. Meiburg? I can 
give you the answer. I know it, but go ahead.
    Mr. Meiburg. This will be interesting. To the best of my 
knowledge, in my previous role----
    Mr. Meadows. I am talking about your new role since you 
have come back. How many people have you fired?
    Mr. Meiburg. In the last 6 months?
    Mr. Meadows. Yes.
    Mr. Meiburg. No, none, zero.
    Mr. Meadows. Is there a problem today at the EPA?
    Mr. Meiburg. I believe that we are very clear at EPA about 
our policy with respect to pornography or sexual harassment and 
that we will be carrying out that policy.
    Mr. Meadows. I believe you have a policy but I believe you 
are not enforcing it because Mr. Reeder, in his talking about 
the policy, he talked about the fact that it is up to the first 
line supervisor to report that. Wasn't that your testimony?
    Mr. Reeder. I testified that our policy requires managers 
to take action if this is brought to them.
    Mr. Meadows. When you were talking to Ms. Lawrence, I 
listened very intently. You said it is important that they 
mention it to their supervisor and the supervisor is to take 
action. That was the policy. Is that your testimony?
    Mr. Reeder. That is correct, sir.
    Mr. Meadows. If that is the policy, why would you not have 
checked with a supervisor in the case of Dr. Jutro?
    Mr. Reeder. I did check with his chain of command.
    Mr. Meadows. You did not check with his supervisor?
    Mr. Reeder. I did not check with his direct supervisor.
    Mr. Meadows. The policy says, go to the supervisor, so the 
supervisor is the only one that would really know under your 
policy and yet, you did not go to him, did you?
    Mr. Reeder. I assumed that the senior folks in that office 
would have been informed of any serious misconduct. I did. As I 
mentioned earlier, I would be more explicit in that check were 
I to do that again.
    Congressman, you had asked about the culture at EPA. There 
is some data that addresses that. I have to agree with Deputy 
Meiburg that EPA does have a healthy work environment, I 
believe.
    Mr. Meadows. Mr. Reeder, let me just tell you. We are 
checking into facts here. Your opinion on a healthy environment 
and the reality of the facts do not line up.
    Mr. Reeder. The fact is that EPA employees were surveyed.
    Mr. Meadows. I have gone way over my time. The Ranking 
Member has been very gracious.
    I am going to recognize the gentleman from Wisconsin, Mr. 
Grothman.
    Mr. Grothman. Thank you. I am going to followup on that 
just a little bit.
    Just so you know, in my area--we are supposed to be here 
looking for jobs and improving the economy--there is no Federal 
agency that is perceived to lack commonsense more and doing 
more to endanger the American economy than the EPA.
    People, when I talk to them, always kind of wonder what 
these people are doing in Washington, that they are so far 
removed from reality when they come up with new regulations and 
this sort of thing to penalize or hamstring American business.
    This is not exactly the type of hearing I thought I was 
signing up for when I ran for this job. I thought I was going 
to be talking to the EPA about what are your people doing when 
they come up with these ridiculous ozone rules. Now we kind of 
know at least what some of them are doing.
    Is it really true what these people are saying that some of 
these people were spending two to 6 hours a day watching porn? 
Is that accurate, the testimony we are getting here?
    Mr. Meiburg. It is accurate that we had three cases, one of 
which was a criminal case, and then two other cases that were 
identified in the last couple of years that those two employees 
were watching unbelievable, completely offensive and 
unacceptable amounts of pornography. That is two people out of 
a very large agency. That is not to be defensive about that at 
all, but just as Stated.
    Mr. Grothman. Do you think because that is what they were 
doing, first of all, that more people were doing it?
    Second, if in their job, they had the time to dilly dally 
around and spend two to 6 hours watching porn, maybe other 
employees are spending two to 6 hours doing maybe not things 
that would be as interesting to the home viewing audience but 
doing whatever else people do when they are not working?
    Mr. Meiburg. Congressman, I believe, from my experience 
with EPA, that is a very, very small number and that the vast, 
vast majority--I think the Inspector General would agree with 
me--of EPA employees are dedicated and hardworking and doing 
the things to protect the environment for the people of this 
country that have produced a much cleaner environment over the 
last 45 years.
    Mr. Grothman. In the future, if you catch someone watching 
porn on their computer, how often do you have to have that 
screen up before you think they are terminated?
    Mr. Meiburg. It is clear the two cases involved, the 
proposing official felt that was more than enough information 
to require them to be terminated. I do not know that there is a 
specific line because we have to consider due process and the 
Douglas factors in doing conduct and discipline cases.
    Clearly, what these two employees did--not to prejudge the 
last action which is still in administrative process--but it 
was way out there.
    Mr. Grothman. Like a lot of people, we had other meetings 
going on in the building, so maybe I did not catch it. You are 
saying the Douglas factors. You think an hour a day, a half 
hour a day, 15 minutes a day, 5 minutes a day, what are you 
saying rises to the level where you feel maybe this person 
should find another line of work?
    Mr. Meiburg. Again, to be clear, any amount of watching 
pornography on EPA computers on EPA time is unacceptable. The 
question then becomes, what level of sanction would you impose 
as a result of that?
    Mr. Grothman. That is exactly right. If we find somebody 
has been watching porn for an hour a week, a half hour a week, 
15 minutes a week, at what point do you think they should no 
longer be working for the EPA, if you just had to give us a 
wild guess?
    Mr. Meiburg. I am hesitant to do that about any specific 
case but some of the kind of upper numbers you mentioned would 
cause grave questions for me if I were their supervisor, why 
that person should be working for EPA.
    Mr. Grothman. How about the lower numbers I mentioned? How 
about a half hour? Do you think a half hour is out of line?
    Mr. Meiburg. There would be consequences and discipline 
associated with that. I do not want to make it sound like I am 
splitting hairs or being overly complicated, but each one of 
these cases has to be considered individually.
    Mr. Grothman. I think what I am going to do for you, just 
because this is not an area that I am an expert in, the next 
time I go back to my district and tour my local manufacturers 
being threatened with their existence and throwing all their 
employees out because of what the EPA is doing, I will ask them 
how many hours or half hours a week or 15 minute slots a week 
of porn they allow their employees to watch before they 
terminate them so you kind of know what the average company out 
there feels is a good policy.
    I will get back to you on that and then you will have some 
direction. Is that OK? I appreciate you spending the time 
today.
    Mr. Meiburg. Thank you, Congressman.
    Mr. Meadows. I thank the gentleman.
    The Chair recognizes the Ranking Member of the full 
Committee, the gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Gentlemen, your day with us has just about ended but I have 
to tell you, if I were watching this, Mr. Meiburg, just 
watching C-SPAN, I would be disgusted.
    We are better than this. We are so, so, so much better. 
Just think of the idea that the sexual harassment issues. Are 
you married, Mr. Meiburg?
    Mr. Meiburg. Yes, sir, Ranking Member.
    Mr. Cummings. The idea that your wife would come to work, 
after doing all the things she has to do to get ready in the 
morning and take care of her family, then she has to come and 
be harassed. Then it seems as if the powers that be do not 
address those issues when they find out about them. Man, you 
would go crazy.
    I was just thinking about what a negative impact all of 
this has on the morale. Mr. Chairman, you talked about it a 
minute ago. The idea that you have these folks who stay in the 
employment of our EPA, after having done these things, I just 
cannot get past what you told me a little earlier about how you 
guys are waiting for the U.S. Attorney and come to find out, 
you already had permission to move forward in one of the 
pornography cases.
    Something is missing and we are better than this. We are so 
much better. If you cannot do the job, you need to let somebody 
else get in there and do it because a lot of people are 
depending on government functioning properly.
    They just want to come to work, do their job, give them 
their blood, sweat and tears and then go home, but then their 
morale gets destroyed when they see people coming back to work, 
they will get a little tap on the hand, come on back, welcome, 
watch some more porn. Give me a break, this is crazy. We are 
better than this, do you agree?
    Mr. Meiburg. Congressman, I absolutely do. The point you 
made is that the people who most deserve that we take action on 
cases of folks who are engaged in terrible conduct, the ones 
who most deserve it are the employees of EPA. I want to make 
sure I am clear on a couple of points.
    Mr. Cummings. Be clear because I have to tell you, man, I 
am a bit concerned here. I do not feel the sense of urgency. 
That is right, I said I do not feel a sense of urgency. I do 
not feel the sense of significance.
    The only reason I mentioned your wife is because sometimes 
I think people need to flip things and think about how they 
would want their relatives to be treated or their daughter. Do 
you follow what I am saying? I was trying to get some of that 
urgency out of you and I am working on it.
    Mr. Meiburg. Thank you because I think that would be an 
appropriate sense to get from me, that sense of urgency.
    Mr. Cummings. I wanted to paint a picture for you because 
sometimes when you think about somebody you are close to, 
somebody you love, somebody who supports you, somebody who has 
your children--go ahead. We have you at the urgency level now, 
I guess.
    Mr. Meiburg. Absolutely.
    Mr. Cummings. OK.
    Mr. Meiburg. The fact of the matter is watching pornography 
on government time and on government equipment is prohibited by 
EPA policy and we are, indeed, urgent about that because 
employees who engage in such behavior will face disciplinary 
action up to and including removal.
    In doing that, the one thing that has not come out in this 
hearing--I do want to make a point.
    Mr. Cummings. Do it quickly because I have a few things 
else I need to discuss.
    Mr. Meiburg. EPA wants to follow the law and part of the 
reason we want to make sure we follow the law in these things 
is so that actions we take are sustained on appeal to either 
the Merit System Protection Board, the EEOC or in the District 
Court because the consequences of an action that we took where 
we removed somebody and then that action was overturned would 
be pretty bad.
    Mr. Cummings. I got you. The Merit System Protection Board 
submitted a Statement for today's hearing stating that 
``Current law permits an agency to take adverse employee 
action, including removal based solely on an employee's sworn 
Statement or admission.'' Several MSPB decisions are cited.
    Mr. Chairman, I would ask that it be admitted to the 
record.
    Mr. Meadows. Without objection.
    Mr. Meiburg. That would be helpful.
    Mr. Cummings. Thank you.
    Do we have an extra copy for him? Mr. Meiburg, I am going 
to get you a copy of it.
    The MSPB has determined that an agency may rely on an 
appellant's admission ``in support of its charge.'' Mr. 
Meiburg, help me with this. Why wasn't this employee's detailed 
admission of downloading and viewing pornographic images on the 
EPA equipment over the course of years sufficient to initiate a 
removal?
    Mr. Meiburg. Congressman, I do not mean to be evasive, but 
I cannot speak to that particular thing. I do think, and I have 
urgency about this, that we do need to work better with the 
Office of the Inspector General, the Department of Justice and 
U.S. Attorneys to make sure we, ourselves, clearly understand. 
We have work to do. We understand that.
    Mr. Cummings. Were you familiar with what I just talked 
about--not necessarily the document but the fact that you could 
do this?
    Mr. Meiburg. No. This is actually new information to me.
    Mr. Cummings. Did you know that, Mr. Sullivan?
    Mr. Sullivan. Yes, sir, I did, Mr. Cummings. We 
communicated that to the Labor Employee Relations attorneys 
that we dealt with continually on both of these cases that you 
were free to take action and they certainly could take action, 
but they chose to wait until the very end. It is inexplicable 
to me and I do not know why they did that.
    Mr. Cummings. Mr. Meiburg, we have to do better. I am 
sorry, this is not acceptable. It is not acceptable. I feel sad 
about it. Listen to me. You do not have to say anything, I am 
almost finished.
    I feel sad about it. You have Mr. Sullivan and Mr. Elkins 
and I think I was a little hard on you all in my opening 
Statement. Now that I look back, it is not your fault. You did 
your job. You did what you could do. You gave the advice, you 
tried but then it seems as if you were hitting brick walls in 
trying to accomplish what you wanted to accomplish. For that, I 
apologize for what I said earlier.
    I could not figure out why things were not moving fast 
enough. Now, I know. Now I know. Do you know who it is? It is 
you, Mr. Meiburg and you, Mr. Reeder. There is absolutely no 
excuse for it, I am sorry. There just isn't.
    This is the last thing, Mr. Chairman. Thank you for your 
indulgence.
    Earlier, I asked for a commitment of the EPA and the IG to 
work together to share admissions of employee misconduct. Mr. 
Meiburg and Mr. Elkins, you both agreed to do that. I just want 
you to keep the Chairman and I informed of your progress. You 
all are going to start working on that immediately, somebody?
    Mr. Elkins. Yes, we will do that.
    Mr. Meiburg. Yes.
    Mr. Cummings. Can you give me some date when I can expect 
an answer because I do not want to wait too long? I want a date 
now. Give me a date.
    Mr. Meiburg. We will work together with the Inspector 
General and get you a followup on that by the end of June.
    Mr. Cummings. What did you say?
    Mr. Meiburg. The end of June.
    Mr. Cummings. Why is it going to take so long?
    Mr. Meiburg. I want to make sure that we are doing this----
    Mr. Cummings. Mr. Meiburg?
    Mr. Meiburg. I am not trying----
    Mr. Cummings. Mr. Meiburg, I tell you what. Make it the end 
of May, all right? To me that is too long, OK?
    Mr. Meiburg. Yes, sir.
    Mr. Cummings. The end of May, will you try?
    Mr. Elkins. Yes, sir.
    Mr. Cummings. If you are having difficulty, would you let 
us know? You can contact the staff or send us a letter if you 
are having difficulty getting together because we expect 
something by the end of May, all right?
    Mr. Elkins. Yes, sir.
    Mr. Cummings. Thank you all very much.
    Mr. Meadows. I thank the gentleman. Before he leaves, I 
want to make one comment.
    We were discussing and talking about employee morale. There 
is on one more committed to the Federal work force than the 
gentleman from Maryland but it also shows his character, Mr. 
Elkins and Mr. Sullivan, when the Ranking Member is willing to 
apologize for perhaps being overzealous. That just speaks to 
your character, Mr. Cummings. I just want to thank you for 
that.
    Mr. Meiburg, I want to be very specific. A lot has been 
talked about and I understand that you have a zero tolerance 
for porn watching but in light of the revelation that the 
Ranking Member just provided to you that you have the ability--
not only the ability, the requirement--to address these kinds 
of behaviors, I would like to know from you today, if we have 
an EPA employee who is watching porn--let us pick an hour or a 
week on average--are you willing to fire them, yes or no?
    Mr. Meiburg. I am not willing to make a judgment on an 
individual case without----
    Mr. Meadows. If they admit that they have been watching it 
and you find it on their hard drive, are you willing to fire 
them, yes or no?
    Mr. Meiburg. I will answer for myself.
    Mr. Meadows. You are the head of the agency--one or two 
down--you can answer for the agency, yes or no, will you fire 
them?
    Mr. Meiburg. If we have an employee who is watching--I will 
go with your scenario--an hour a day of porn and that is 
documented by whatever forensics we need to do to document 
that, it seems to me that would be an appropriate case for 
proceeding with termination.
    Mr. Meadows. That is not a yes or no, Mr. Meiburg. That is 
a question with a question. My question is very specific. If 
they are watching porn for a hour--it is a low threshold--I 
would not even tolerate that--would you fire them?
    Mr. Meiburg. I understand that.
    Mr. Meadows. Yes or no?
    Mr. Meiburg. I would fire them.
    Mr. Meadows. Will you instruct your departments to fire 
them?
    Mr. Meiburg. I will take that information back and----
    Mr. Meadows. Yes or no? There is a yes or no to the end of 
this question and we are going to get there eventually. If the 
answer is no, just tell the American people no because I am 
sensing the answer is no.
    Mr. Meiburg. I do not think that is fair but I also do not 
think it is fair to me that you prejudge every case that would 
come before a supervisor or before the agency. I am sorry that 
is not a simple yes or no answer but it is just not.
    Mr. Meadows. So the answer is no?
    Mr. Meiburg. The answer is not no and the answer is not in 
every case.
    Mr. Meadows. Mr. Meiburg, let me just tell you, I know they 
brought you back and you had a stellar career in Region IV and 
other places, but I can tell you that you are doing the EPA a 
disservice today.
    If you cannot, before the American people, admit that 
watching porn is offensive enough to fire them, moms and dads 
all across America do not understand that and quite frankly, 
neither do I.
    Mr. Meiburg. Congressman, I completely agreed that watching 
porn on EPA computers is not acceptable.
    Mr. Meadows. But if you do not do anything about it, Mr. 
Meiburg, it will never change. What I am hearing from you today 
is that you are not going to do anything about it. I am 
saddened to hear that.
    Mr. Sullivan and Mr. Elkins, I want to thank you for your 
work. I want to also let you know that the Ranking Member and I 
were talking about this and I know that Chairman Chaffetz is 
not going to let this go by the wayside. If you will continue 
to followup and do your work, please thank all of those who 
work with you.
    The other thing is if we do not get clarity by the end of 
May, as the Ranking Member suggested, on working with you, we 
are asking you to report back to this Committee any potential 
problems. Mr. Elkins, are you willing to do that?
    Mr. Elkins. Yes, sir. Thank you for your support.
    Mr. Meadows. You have it.
    I would also suggest at this particular point, Mr. Meiburg, 
if at 72 hours you have an employee issue that you would notify 
Mr. Elkins within 72 hours, your supervisors or anyone else, on 
anything that may be of a concern and let the Inspector General 
determine whether it is something that needs to be followed up, 
not just those that you think are important.
    Wouldn't you agree that all--as your previous testimony 
would indicate--need to go to the Inspector General?
    Mr. Meiburg. Again, my testimony is that my own experience 
in going to the Inspector General----
    Mr. Meadows. I do not care about your own experience, you 
will be long gone eventually. Should the agency have the 
commitment to refer all--a-l-l, all--to the Inspector General, 
yes or no?
    Mr. Meiburg. Again, not to parse hairs, but when you say 
all, are you referring to all issues of employee misconduct?
    Mr. Meadows. Yes, all issues of employee misconduct or 
potential employee misconduct, all, a-l-l?
    Mr. Meiburg. The reason I am hesitating--not to parse 
words--is that----
    Mr. Meadows. Well, you are parsing words so I would suggest 
that you get somebody else to come and testify the next time 
around.
    Mr. Clay, we will recognize you for 5 minutes of 
questioning.
    Mr. Clay. Thank you so much, Chairman Meadows.
    I know some of this ground has been covered already but I 
would like to focus on the case of the GS-14 environmental 
protection specialist. Help me with the timeline. On May 2, 
2014, the IG received allegations that this employee was 
viewing pornography at work. On May 8, the IG interviewed the 
employee and took his sworn Statement. On June 19, the IG 
provided the EPA with a copy of the employee's sworn Statement.
    It took the IG about a month after the Statement was given 
to provide the EPA with a copy. That is a quick turnover 
compared to the case of the geologist.
    Despite receiving the sworn Statement on June 19, the EPA 
did not start to process removing him. Instead, dialog ensued 
between the EPA and the IG over the next 10 months regarding 
additional evidence.
    On February 23, 2015, the U.S. Attorney's Office for the 
District of Columbia declined prosecution of this case. The IG 
communicated this to the EPA in its final Summary Memorandum 
Report on March 13, 2015.
    After this happened, the EPA acted quickly, issuing a 
Notice of Proposed Removal on March 23, 2015. This case is 
currently pending so we cannot delve further into the details, 
but it is difficult to understand why the EPA did not go 
forward with removal proceedings as soon as it received the 
admission.
    At that point, these were no longer just allegations. They 
were admissions by the employee himself. Yet, here we are and 
it is nearly a year later and the employee's removal is still 
pending.
    I would like to hear from the panel whether there is a way 
we can handle similar cases more effectively and efficiently in 
the future? Mr. Elkins, I will start with you.
    Mr. Elkins. Yes, sir. Thank you for the question.
    I think initially in our conversations and after we 
complete investigations, we immediately and timely have a 
conversation with the agency as to what our findings are. At 
that point, once we turn it over to the agency, it is up to the 
agency to act on it.
    In the past, we have had discussions about what an 
admission means, what the culpable level of standard of proof--
we had that discussion so we have gone through this many times 
with the agency, but once it leaves my shop and we give it to 
the agency, we are dependent on the agency to act.
    Mr. Clay. Mr. Sullivan, anything to add?
    Mr. Sullivan. Mr. Clay, no, I concur with Mr. Elkins. We 
acted appropriately in this investigation. Not only did we turn 
the report over within a month, immediately after we 
interviewed the environmental specialist, we verbally briefed 
his supervisor as to the results. Within a day of the 
investigation beginning and the interview being conducted, we 
verbally briefed the supervisor and turned over the confession 
within a month.
    Mr. Clay. Take it from there, Mr. Meiburg.
    Mr. Meiburg. To that point, one of the things we have 
discussed in this hearing this morning is that perhaps EPA--not 
perhaps, EPA needs to look back at its own internal procedures 
to enable us to proceed based on the admission without waiting 
for the final conclusion by the Attorney General's Office about 
whether or not they are going to accept a matter for criminal 
prosecution. That would have speeded up this case.
    Mr. Clay. Where is it now?
    Mr. Meiburg. Which one?
    Mr. Clay. Is the employee still there?
    Mr. Meiburg. I am trying to remember which employee. There 
were two employees. I am trying to remember which one.
    Mr. Clay. This is the GS-14 environmental protection 
specialist.
    Mr. Meiburg. The agency proposed removal of the employee. 
The employee, as is his right, contested this and is going to a 
hearing with the deciding official today.
    Mr. Clay. I see.
    Mr. Reeder, anything to add?
    Mr. Reeder. No, Congressman.
    Mr. Clay. Let me pose this question to the entire panel. 
What can we do to get all of the necessary evidence to the 
agency more quickly to facilitate quicker removals in cases 
where the individual has admitted serious misconduct? Mr. 
Elkins, we will start with you.
    Mr. Elkins. Yes, sir. One of the issues here is that once 
we have provided our evidence to the agency, we hear in many 
cases that the agency says we do not have enough evidence, so 
give us more evidence. Again, when you have an admission, you 
do not need much more than that.
    Also, we are not talking about a criminal case where the 
standard of proof is proof beyond a reasonable doubt. It is a 
preponderance of the evidence. When we prepare a case and that 
case is going to the U.S. Attorney's Office, we prepare it to 
meet the burden of beyond a reasonable doubt.
    When we turn it over to the agency, it is a lower standard, 
so they have everything they need, yet what we hear and what we 
have heard from the agency is, give us more.
    Mr. Clay. Did the agency tell you that in this case?
    Mr. Elkins. Yes, I believe in most of the cases that I have 
been involved with, that is what I have heard.
    Mr. Clay. Mr. Meiburg, tell me why the agency needed more 
evidence after you had an admission from the employee?
    Mr. Meiburg. Congressman, I cannot speak to this particular 
case on that matter. As a general matter, the agency wanted to 
make sure we were not taking any action to interfere with a 
possible criminal prosecution or with the Inspector General's 
investigation, which was not the issue in this case and to make 
sure we had enough information so that when we take a final 
action that was subject to review, that it would be sustained 
either administratively or in the courts.
    Our fear, if you will, is that actions we take are 
overturned which would result in not only having to pay back 
salary, attorneys' fees and possible penalties, but then the 
employee ends up being reinStated at the agency. That would not 
be a happy outcome.
    Mr. Clay. Mr. Reeder, now this employee is going to an 
administrative hearing to contest his firing?
    Mr. Reeder. I know that only because of the Deputy 
Administrator's testimony. I am not familiar with this case.
    Mr. Clay. You are not familiar with this one.
    My time is up but thank you.
    Mr. Meadows. I thank the gentleman from Missouri.
    If there is no further business before the Committee, I 
would like to thank all the witnesses for being here today.
    This meeting of the Oversight Committee is adjourned.
    [Whereupon, at 11:33 a.m., the hearing was adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
